No. 20-___
IN THE

Supreme Court of the United States
————
TCL COMMUNICATION TECHNOLOGY HOLDINGS, LIMITED,
TCT MOBILE LIMITED,
TCT MOBILE (US) INC.,
v.

Petitioners,

GODO KAISHA IP BRIDGE 1,
Respondent.
————
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit
————
PETITION FOR A WRIT OF CERTIORARI
————
LIONEL M. LAVENUE
Counsel of Record
FINNEGAN, HENDERSON,
FARABOW, GARRETT
& DUNNER, LLP
1875 Explorer Street
Suite 800
Reston, VA 20190
(571) 203-2750
Lionel.lavenue@finnegan.com
Counsel for Petitioners
May 3, 2021
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D.C. 20002

i
QUESTIONS PRESENTED
This Court’s precedent in Markman requires that
the construction of a patent “is exclusively within
the province of the court.” Markman v. Westview
Instruments, Inc., 517 U.S. 370 (1996). Consistent
with this directive, courts determine claim
construction—not juries. The jury applies the claims
as construed and determines whether the accused
product infringes.
The questions presented in this case, properly
stated, are:
1. Whether under 35 U.S.C. § 271 and this Court’s
precedent, a patentee may prove literal infringement
by relying solely on the essentiality of its patent to an
industry standard, rather than comparing the accused
product directly to the asserted claim or linking
the industry standard to the claim during claim
construction.
2. Whether a court must first determine claim
construction and conclude as a matter of law that the
scope of the asserted claims covers an industry
standard and that a patentee may rely on an industry
standard in proving literal infringement.

ii
PARTIES TO THE PROCEEDINGS BELOW
Petitioners TCL Communication Technology Holdings, Limited, TCT Mobile Limited, and TCT Mobile
(US) Inc. were the defendants in the district court and
the appellees in the court of appeals.
Respondent Godo Kaisha IP Bridge 1 was the
plaintiff in the district court and the appellant in the
court of appeals.

iii
CORPORATE DISCLOSURE STATEMENT
Petitioner TCT Mobile International Limited is a
wholly owned subsidiary of TCT Mobile Worldwide
Limited.
TCT Mobile Worldwide Limited is a wholly owned
subsidiary of TCL Communication Technology Holdings Limited. Vivid Victory Developments Limited
owns 13% of TCL Communication Technology Holdings Limited, and T.C.L. Industries Holdings (H.K.)
Limited owns 87% of TCL Communication Technology
Holdings Limited. T.C.L. Industries Holdings (H.K.)
Limited is a wholly owned subsidiary of TCL
Industries Holdings Company, Limited. No other
publicly held company owns 10% or more of stock in
TCT Mobile International Limited or TCL Communication Technology Holdings Limited.

iv
STATEMENT OF RELATED PROCEEDINGS
The following proceedings are directly related to this
case within the meaning of Rule 14.1(b)(iii):


TCL Communication Technology Holdings,
Limited, TCT Mobile Limited, and TCT
Mobile (US) Inc. v. Godo Kaisha IP Bridge 1,
No. 19-2215 (Fed. Cir.), judgment entered on
December 4, 2020.



Godo Kaisha IP Bridge 1 v. TCL Communication Technology Holdings, Limited, TCT
Mobile Limited, and TCT Mobile (US) Inc.,
No. 1:15-cv-00634-JFB-SRF (D. Del.), judgment
entered on July 2, 2019.

v
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ...............................

i

PARTIES TO THE PROCEEDINGS BELOW ...

ii

CORPORATE DISCLOSURE STATEMENT .....

iii

STATEMENT OF RELATED PROCEEDINGS .

iv

TABLE OF AUTHORITIES ................................

vii

OPINIONS BELOW ............................................

1

STATEMENT OF JURISDICTION ....................

2

INTRODUCTION ................................................

2

STATEMENT OF THE CASE ............................

6

A. Patents-In-Suit ...........................................

6

B. LTE Standard .............................................

6

C. District Court Proceedings .........................

7

D. The Federal Circuit Appeal ........................

9

REASONS FOR GRANTING THE PETITION..

11

I. A patented invention is defined by the
scope of the claims, not an industry
standard, and a patent owner can only
obtain an infringement finding for—
an collect damages on—products that
practice each and every limitation of the
claims ........................................................

13

II. The Federal Circuit’s decision conflicts
with Supreme Court claim construction
precedent ...................................................

14

vi
TABLE OF CONTENTS—Continued
Page
III. The Federal Circuit’s ruling allowing a
party to obtain an infringement finding
by relying solely on an industry standard
and no claim construction is an error that
will propagate if left unchecked ...............

16

CONCLUSION ....................................................

20

APPENDIX
APPENDIX A: Dkt. 359, Final Judgment,
July 2, 2019...................................................

1a

APPENDIX B: Dkt. 234, Memorandum Order
re Claim Construction, April 19, 2017.........

4a

APPENDIX C: Dkt. 510, Order on Motion for
Judgment as a Matter of Law on Willful
Infringement, dated January 2, 2019 ..........

30a

APPENDIX D: Dkt. 531, Memorandum and
Order on plaintiff’s motion for post-trial
relief and request for fees and costs ............

31a

APPENDIX E: Dkt. 532, Memorandum and
Order on defendants’ motion for judgment
as a matter of law, April 26, 2019................

49a

APPENDIX F: CAFC Dkt. 69, CAFC Opinion
.........................................................................

60a

APPENDIX G: CAFC Dkt. 76, CAFC Order .

70a

APPENDIX H: Defendants’ Bench Brief Regarding Jury Instructions On Direct
Infringement .................................................

72a

vii
TABLE OF AUTHORITIES
CASES

Page(s)

Advanced Steel Recovery, LLC v. X-Body
Equip., Inc.,
808 F.3d 1313 (Fed. Cir. 2015) .................

14

Dynacore Holdings Corp. v. U.S. Philips Corp.,
363 F.3d 1263 (Fed. Cir. 2004) .................

11

Fujitsu Ltd. v. Netgear Inc.,
620 F.3d 1321 (Fed. Cir. 2010) ................passim
Garretson v. Clark,
111 U.S. 120 (1884) ...................................

19

Graver Tank & Mfg. Co. v. Linde Air
Prods. Co.,
336 U.S. 271 (1949) ...................................

13

Impression Prods., Inc. v. Lexmark
Int’l, Inc.,
137 S. Ct. 1523 (2017) ...............................

13

Jeneric/Pentron, Inc. v. Dillon Co., Inc.,
205 F.3d 1377 (Fed. Cir. 2000) .................

4

Limelight Networks, Inc. v.
Akamai Techs., Inc.,
572 U.S. 915 (2014) ...................................

13

Markman v. Westview Instruments, Inc.,
517 U.S. 370 (1996). .................................passim
McClain v. Ortmayer,
141 U.S. 419 (1891) ...................................

13

Teva Pharms. USA, Inc. v. Sandoz, Inc.,
574 U.S. 318 (2015) ................................... 15, 16

viii
TABLE OF AUTHORITIES—Continued
Page(s)
CONSTITUTION
U.S. Const. amend. VII ................................ 2, 11
STATUTES
28 U.S.C. § 1254(l) ........................................

2

35 U.S.C. § 154(a) .........................................

13

35 U.S.C. § 271 .............................................

13

35 U.S.C. § 271(a) .........................................

13

RULES
Fed. R. Civ. P. 50(b)......................................

8

OTHER AUTHORITIES
9 J. Wigmore, Evidence (J. Chadbourn rev.
ed. 1981) ........................................................ 14-15
Jorge L. Contreras, Essentiality and
Standards-Essential Patents, in THE
CAMBRIDGE
HANDBOOK
OF
TECHNICAL
STANDARDIZATION
LAW: COMPETITION, ANTITRUST,
AND PATENTS (Jorge L. Contreras ed.,
2018) ..........................................................

17

Joshua D. Wright, SSOs, FRAND, and
Antitrust: Lessons from the Economics of
Incomplete Contracts, 21 Geo. Mason L.
Rev. 791 (2014)..........................................

17

ix
TABLE OF AUTHORITIES—Continued
Page(s)
Justus Baron & Tim Christoph Pohlmann,
Mapping Standards to Patents using
Declarations
of
Standard-Essential
Patents, 27 J. ECON. & MGMT.
STRATEGY 504 (2018) .............................
Mark Lemley & Timothy Simcoe, How
Essential are Standard-Essential Patents?
104 CORNELL L. REV. 607 (March
2019) ..........................................................
Robin Stitzing et al., Over-Declaration of
Standard Essential Patents and the
Determineants of Essentiality (2018),
available at https://ssrn.com/abstract=
2951617 .....................................................

18

17

18

IN THE

Supreme Court of the United States
————
No. 20-__
————
TCL COMMUNICATION TECHNOLOGY HOLDINGS, LIMITED,
TCT MOBILE LIMITED,
TCT MOBILE (US) INC.,
v.

Petitioners,

GODO KAISHA IP BRIDGE 1,
Respondent.
————
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit
————
PETITION FOR A WRIT OF CERTIORARI
TCL Communication Technology Holdings, Limited,
TCT Mobile Limited, and TCT Mobile (US) Inc (together
“TCL”) respectfully petition for a writ of certiorari to
review the judgment of the United States Court of
Appeals for the Federal Circuit in this case.
OPINIONS BELOW
The Federal Circuit’s opinion (Appx. 60a) is reported
at 967 F.3d 1380. The district court’s opinion denying
TCL’s post-trial motions (Appx. 30a, 49a) are unreported.

2
STATEMENT OF JURISDICTION
The Federal Circuit issued an opinion on August 4,
2020, Appx. 60a, and entered judgment on December
4, 2020 and denied rehearing, Appx. 70a. By general
order, the Court extended the time to file this petition
to May 3, 2021. This Court has jurisdiction under 28
U.S.C. § 1254(1).
INTRODUCTION
The Federal Circuit’s decision in this case directly
violates Supreme Court precedent. This Court could not
have been clearer in Markman v. Westview Instruments,
Inc., 517 U.S. 370 (1996): “[T]he construction of a
patent, including terms of art within its claim, is
exclusively within the province of the court.” Id. at
372 (emphasis added). In Markman, this Court also
expressly rejected the proposition that claim construction is “subject to a Seventh Amendment guarantee
that a jury will determine the meaning of any disputed
term of art about which expert testimony is offered.”
Id. Thus, this Court’s precedent requires the judge, not
the jury, to construe the meaning of a patent claim,
which is the precedent violated here.
The Federal Circuit’s error was born out of the fact
that the underlying case involved industry standards
for mobile devices. Relevant here, industry standards
describe protocols (often involving technology thresholds)
that mobile devices must comply with to operate on a
particular mobile phone network (e.g., 4G, 5G). Product
features required by industry standards are often
covered by patents. Such patents, often self-declared
essential by the patent owner, are called “standardessential patents.”
In patent-infringement cases involving standardessential patents, patent owners can prove infringement by first mapping an industry standard to the

3
claims of a patent (in a way that shows the patented
features overlap with features required by the standard),
and, second, by showing that the product practices the
standard. This is not how ordinary patent cases work.
Usually, the accused products are mapped directly to
the patent claims. Standard-essential patent holders
can prove their case the conventional way if they
wish (i.e., by comparing the accused product directly
to the patent). But they also have the option of proving
infringement in the way described above—i.e., by
using the industry standard to tie the products accused
of infringing to the claims.
This approach of using an industry standard to tie
patent claims to an accused product only works if the
plaintiff proves that every feature required by the claims
is also covered by the industry standard. If a patent
claim has additional features that are not required by
the industry standard, the patent holder must do more
than show mere compliance with an industry standard
to prove infringement. It must also show that the
accused product has the additional features beyond
what is required by the standard. If such proof is not
required, a patent holder would be able to use an
industry standard to end-run the patent claim by
getting an infringement finding without proving that
the accused product practices all features recited in
the patent claim.
The Federal Circuit established a legal framework
that governs standard-essential patent cases. In particular, “[i]f a district court construes the claims and
finds that the reach of the claims includes any device
that practices a standard, then this can be sufficient
for a finding of infringement.” Fujitsu Ltd. v. Netgear
Inc., 620 F.3d 1321, 1327 (Fed. Cir. 2010). If a patent
holder does not sufficiently tie its patent claims to the

4
relevant industry standard through the claim construction process (i.e., the Markman analysis), the
Federal Circuit’s legal framework for standard-essential
patents unravels, and industry standards can be used
to end-run patent claims (as described). Accordingly,
in industry-standard patent cases, the claim construction process is essential—it is the only way to ensure
that the patent holder who elects to rely on an industry
standard to prove infringement does so in a way that
connects the claims to the standard and proves that
the accused products practice every limitation in the
claim. Jeneric/Pentron, Inc. v. Dillon Co., Inc., 205
F.3d 1377, 1382 (Fed. Cir. 2000) (explaining that a
patent holder can only prove infringement when
“every limitation recited in the claim appears in the
accused product, i.e., the properly construed claim
reads on the accused product exactly”).
Here, Plaintiff-Appellee Godo Kaisha IP Bridge 1
(“IP Bridge”) sued TCL on a theory of literal infringement of U.S. Patent Nos. 8,385,239 and 8,351,538.
Both patents are directed to aspects of cellular communication technology related to the Long-Term Evolution
(“LTE”) standard. The LTE standard contains specifications for wireless broadband communication for
mobile devices. Importantly, IP Bridge never took
the step of tying the patent claims to the industry
standard during the claim construction process. Instead,
IP Bridge merely relied on a declaration of standard
essentiality at trial from a standard-settings organization known as 3GPP. Thus, the jury was left to map
the industry standard to the claims on its own. In
other words, the jury construed the patent claims—a
clear violation of Markman. Under Markman, only
the district court can construe the patent claims.
Markman, 517 U.S. at 372.

5
On appeal, the Federal Circuit failed to correct this
error. Thus, the Federal Circuit condoned a decision
permitting the jury to rely entirely on the existence of
the LTE standard to prove infringement, CAFC Appx.
60, and where the district court never construed the
patent claims in a way that linked the industry
standard to the patent claims. This error is especially
egregious here, because the declaration of standardessentiality that the jury used to conclude infringement was made by a non-litigant, 3GPP, on agreement
with IP Bridge, and without determining whether
each limitation of each claim is essential to the standard. Applying this Court’s decision in Markman to
the facts of this case would correct this injustice and
align the Federal Circuit’s precedent with this
Court’s precedent. Allowing patent holders to prove
infringement merely by proving compliance with an
industry standard—and without any construction by
the district court tying the patent claims to the
standard—contravenes Markman by creating a “zone
of uncertainty” around the scope of the patent claims,
which is expressly what Markman tried to prevent
with its bright-line rules on claim construction.
Markman, 517 U.S. at 390-91.
Moreover, there is a significant risk that the Federal
Circuit’s claim construction error will propagate if this
Court does not intervene with a correct application of
Markman. Indeed, standard-essential patent cases
are frequently filed in the United States, and more
than 40,000 U.S. patents have been declared standardessential. If the Federal Circuit decision stands, standardessential patent owners will routinely bypass claim
construction and end-run patent claims by proving
infringement based solely on self-interested, declarations of “essentiality.” For these reasons, TCL’s
petition for certiorari should be granted.

6
STATEMENT OF THE CASE
A. Patents-In-Suit
IP Bridge accused TCL of infringing claims 9 and 12
of U.S. Patent No. 8,385,239 (“’239 patent) and claims
15 and 16 of U.S. Patent No. 8,351,538 (“’538 patent).
TCL is a mobile phone manufacturer, and IP Bridge is
a patent holding company and does not manufacture
cell phones.
The ’239 patent is directed to transmission of channel
quality indicator (CQI) reports from a user’s phone in
a cellular network. The CQI reports provide the network
with information on the quality of the communication
channel between the base station and the phone. The
claims of the ’239 patent focus on software that determines whether to send an aperiodic CQI report alone
via “CQI-only” mode or along with user data via
“multiplexed” mode.
The ’538 patent is directed to reducing interference
between mobile devices when they simultaneously transmit CQI signals with acknowledged (ACK) signals or
not acknowledged (NACK) signals. The ACK/NACK
signals indicate a mobile device has or has not received
a block of data from a base station. CQI signals and
ACK/NACK signals are transmitted in sequential positions in the transmission called “slots.” Data included
in such transmissions may be “spread” to transmit
information simultaneously using the same frequency
to avoid interference. The ’538 patent claims are
directed to spreading data using a selected orthogonal
sequence.
B. LTE Standard
IP Bridge relied on a theory of infringement that
TCL’s products necessarily infringe the patents-in-

7
suit because they operate on LTE networks. LTE is an
industry standard for wireless broadband communication for mobile devices. It was developed by the
standard-setting organization 3GPP. LTE is generally
known as “4G” and it provides a faster data connection
for mobile devices than “3G.” LTE is based on network
technologies that increase capacity and speed of mobile
device networks. This increase is attributed to the
introduction of orthogonal frequency division multiplex
(OFDM) systems, multiple input multiple output (MIMI)
systems, more direct data routing (i.e. outsourcing
some processes to local systems and reducing system
hierarchy), reliance on packet switching instead of
circuit switching, and other improved systems and
methods. The ’538 and ’239 patents relate to the
LTE standard in that they govern a specific set of
communications of mobile devices with base stations
to transmit channel quality indicators.
C. District Court Proceedings
IP Bridge accused TCL of literally infringing U.S.
Patent Nos. 8,385,239 and 8,351,538. Even though
both of these patents are directed to aspects of cellular
communication technology related to the LTE standard, IP Bridge never sought to tie this standard to
the patent claims at the claim-construction stage.
Instead, IP Bridge proceeded to trial, where it argued
that that the accused products complied with the LTE
standard and thus infringed the asserted patents.
CAFC App. 12985 at 500:10-17, CAFC App. 12991 at
522:13-15. In particular, IP Bridge argued to the jury
that, “because these two patents are needed to practice
the LTE standard, every time TCL makes or sells an
LTE phone, it’s infringing these two patents.” CAFC
App. 12967 at 425:13-16.

8
IP Bridge’s infringement expert (Dr. Min) expressly
stated that he compared the claims of the ’239 patent
and the ’538 patent “to the LTE standard.” CAFC
Appx. 13142 at 885:24-886:8; CAFC Appx. 13173-74 at
943:23-944:4. It summed up this theory as “middle
school algebra”—“if A equals B and B equals C, then A
equals C.” Id. at 4264-8. The jury returned a verdict of
literal infringement. CAFC Appx. 12560-61. IP Bridge
relied on this theory throughout trial. It never linked
the claims directly to the accused product through
claim construction or otherwise.
Notably, both before trial began and then again
during trial, TCL submitted argument and briefing on
the Federal Circuit’s leading case on standard-essential patents—i.e., Fujitsu—specifically in the context
of how that case related to jury instructions. Appx.
73a-77a. TCL argued that “you need to compare the
claim language to what you’re accusing, because that’s
what the law is.” Appx. 74a (citing Trial Tr. 331:1824). IP Bridge responded that TCL’s application of
Fujitsu was incorrect, and that IP Bridge should be
allowed to argue a theory of standards based infringement. Appx. 73a-74a. The district court allowed both
arguments to be heard by the jury. Appx. 74a.
At the end of trial, TCL moved for judgment as a
matter of law, relying on its Fujitsu argument yet
again to contend that IP Bridge had failed to provide
a sufficient evidentiary basis from which a reasonable
jury could find literal infringement. CAFC Appx.
13277 at 1189:8-13. TCL’s motion was unsuccessful,
and the jury found against TCL. After the verdict, TCL
moved for judgment of no literal infringement as a
matter of law under Rule 50(b). In its order denying
the motion, the district court relied on testimony from
Dr. Min asserting that: “(1) the asserted claims are

9
essential to mandatory (not optional) functionality of
the LTE standard (i.e., functionality that must be
performed by any device that complies with the LTE
standard); and (2) the accused products comply with
the LTE standard.” Appx. 55a. The district court found
that “Dr. Min identified mandatory requirements of
the LTE standard and explained how the mandatory
portions relate to and practice the elements of the
asserted claims.” Id. The district court never construed
the patent claims itself and found that they practiced
the LTE standard.
D. The Federal Circuit Appeal
On appeal, TCL again raised the issue of IP Bridge’s
improper, standards-based infringement theory. The
appeal focused on whether Federal Circuit and Supreme
Court precedent permitted IP Bridge to prove literal
infringement by arguing to the jury that (1) its patents
were standard-essential and (2) the accused products
were standard-compatible. The Federal Circuit’s
Fujitsu decision states:
We hold that a district court may rely on an industry
standard in analyzing infringement. If a district court
construes the claims and finds that the reach of the
claims includes any device that practices a standard,
then this can be sufficient for a finding of infringement.
Fujitsu at 1327 (emphasis added). Fujitsu further
states that “[o]nly in the situation where a patent
covers every possible implementation of a standard
will it be enough to prove infringement by showing
standard compliance.”
TCL argued that IP Bridge violated this precedent
by waiting until trial to rely solely on TCL-product
compatibility with the LTE standard. IP Bridge never
asked the district court to consider whether the scope

10
of the patent claims cover an implementation of a
standard. Thus, when IP Bridge provided evidence of
TCL-product compatibility with a standard, IP Bridge
did not meet its predicate burden of proving that TCL’s
products practice each and every limitation of the
asserted claims—IP Bridge never linked the claims to
the LTE standard. TCL also argued that IP Bridge did
not attempt to show that source code of the accused
products practiced the asserted claims. At bottom,
TCL argued that by relying merely on product compatibility with an industry standard, and neglecting
evidence showing how the product operated (such as
source code), IP Bridge failed to prove that the accused
products practice the elements of the patent claims.
In response, IP Bridge argued its infringement
theory was consistent with Fujitsu’s holding, and thus
the district court was correct to deny TCL’s motion for
JMOL. CAFC Opp. Br. 2, 10. IP Bridge also argued
that its expert provided sufficient testimony that the
claims met the elements of the claims. CAFC Opp.
Br. 30-34.
The Federal Circuit considered whether the district
court’s order denying JMOL could stand based on its
precedent in Fujitsu, ultimately concluding that it
could after endorsing “standard compliance as a way
of proving infringement.” Appx. 64a. The Federal
Circuit found that the district court was not required
to construe the claims to determine whether they
cover an industry standard. Appx. 67a-68a. This is
what violates Markman.
More specifically regarding the Federal Circuit’s
decision, the court took the position that “[t]he passing
reference in Fujitsu to claim construction is simply a
recognition of the fact that the first step in any
infringement analysis is claim construction,” rather

11
than a directive that a court should compare the scope
of the claims to an industry standard. Appx. 67a. The
Federal Circuit also stated that its reading of Fujitsu
was supported by Dynacore Holdings Corp. v. U.S.
Philips Corp., 363 F.3d 1263 (Fed. Cir. 2004). According
to the Federal Circuit, “under Dynacore, which Fujitsu
referenced in its holding, standard-essentiality of
patent claims is a fact issue.” Appx. 68a. At its core,
the Federal Circuit’s decision permitted the jury to
construe the patent claims, which violates Markman.
REASONS FOR GRANTING THE PETITION
The Federal Circuit directly violated Markman, which
states that “the construction of a patent, including
terms of art within its claim, is exclusively within the
province of the court.” Markman, 517 U.S. at 372
(emphasis added). The Markman Court also clarified
that claim construction is not “subject to a Seventh
Amendment guarantee that a jury will determine the
meaning of any disputed term of art about which
expert testimony is offered.” Id. Thus, in patent cases,
the judge must construe the meaning of a patent
claim—not a jury.
Here, IP Bridge presented a case that allowed the
jury to construe the patent claims (i.e., the jury
mapped the LTE standard to the patent claims), and
the Federal Circuit erroneously permitted this. The
district court never construed the patent claims itself
to find that practicing the LTE standard means that
the claims are infringed. At trial, the district court
permitted IP Bridge to rely solely on a self-interested
declaration of standard essentiality, without providing
the necessary role of gatekeeper. Thus, the jury was
left to map the industry standard to the claims. In
other words, the jury construed the patent claims,
which allowed IP Bridge to end-run those claims and

12
obtain an infringement verdict without ever showing
that the accused products practiced each and every
limitation.
The Federal Circuit failed to correct this error. It
allowed an infringement verdict to stand where the
district court failed to construe the claims on the issue
of standard essentiality and instead left that decision
to the jury. This error is especially egregious here,
because the declaration of standard-essentiality that
the jury used to conclude infringement was made by
IP Bridge in a self-interested agreement and without
determining whether each limitation of each claim is
essential to the standard. Enforcing this Court’s
Markman ruling would correct this injustice, align
the Federal Circuit’s precedent with this Court’s
precedent, and eliminate the “zone of uncertainty”
that exists when juries are allowed to map standards
to patent claims, which is exactly what Markman tried
to prevent with its bright-line rules on claim construction. Markman, 517 U.S. at 390-91.
Moreover, there is a significant risk that the Federal
Circuit’s claim construction error will propagate if this
Court does not intervene with a correct application of
Markman. Indeed, standard-essential patent cases
are frequently filed in the United States, and more
than 40,000 U.S. patents have been declared standardessential. If the Federal Circuit decision stands,
standard-essential patent owners will routinely bypass
claim construction and end-run patent claims by
proving infringement based solely on self-interested,
declarations of “essentiality.” For these reasons, TCL’s
petition for certiorari should be granted.

13
I. A patented invention is defined by the
scope of the claims, not an industry standard, and a patent owner can only obtain an
infringement finding for—an collect
damages on—products that practice each
and every limitation of the claims
The Supreme Court should address the question of
whether a patentee may prove infringement by relying
solely on the standard essentiality of its patent. TCL
respectfully submits that this approach violates Supreme
Court precedent.
“[A] patentee’s rights extend only to the claimed
combination of elements, and no further.” Limelight
Networks, Inc. v. Akamai Techs., Inc., 572 U.S. 915,
921 (2014) (emphasis added); Graver Tank & Mfg. Co.
v. Linde Air Prods. Co., 336 U.S. 271, 277 (1949) (“We
have frequently held that it is the claim which measures
the grant to the patentee.”); McClain v. Ortmayer, 141
U.S. 419, 424-25 (1891) (“The rights of the plaintiff
depend upon the claim in his patent, according to its
proper construction”) (internal quotation marks omitted).
A patentee may only exclude others from using “[its]
invention,” as set forth in the claims. Impression Prods.,
Inc. v. Lexmark Int’l, Inc., 137 S. Ct. 1523, 1529 (2017)
(citing 35 U.S.C. § 154(a) and § 271(a)).
The Supreme Court has never permitted the use
of standard-essentiality and standard-compliance as
proxies for proving that the claim elements are each
found in the accused product. Likewise, Congress has
never endorsed reliance on standard essentiality to
prove infringement under 35 U.S.C. § 271. The
measure of a patentee’s rights is defined by the claims
of the patent, not by an industry standard. In every
patent case, the patent owner must prove the accused
product falls within the claims to infringe, regardless

14
of whether the patent and accused device is compatible
with an industry standard. Advanced Steel Recovery,
LLC v. X-Body Equip., Inc., 808 F.3d 1313, 1319 (Fed.
Cir. 2015) (“To establish literal infringement, every
limitation set forth in a claim must be found in an
accused product, exactly.”); see also Markman, 517
U.S. at 374 (“Victory in an infringement suit requires
a finding that the patent claim covers the alleged
infringer’s product or process, which in turn necessitates a determination of what the words in the claim
mean.”) (internal quotations omitted).
II. The Federal Circuit’s decision conflicts
with Supreme Court claim construction
precedent
In rejecting TCL’s position that standard-essentiality
should be determined “as a matter of law and as part
of claim construction,” the Federal Circuit reasoned
that determining essentiality “is more akin to an
infringement analysis . . . than to a claim construction
analysis” because it involves analysis of extrinsic
evidence. Appx. 68a. This reasoning is flawed for the
following two reasons.
First, a standard-essentiality analysis in a patent
litigation relies on the construction and comparison of
written instruments, namely, patents and industry
standard documents. As discussed in Markman, this
is precisely the kind of work that judges, not juries,
have historically undertaken. Markman, 517 U.S. at
382−83, n.7 (“it was generally the practice of judges in
the late 18th century ‘to keep the construction of
writings out of the jury’s hands and reserve it for
themselves’”) (emphasis added) (citing 9 J. Wigmore,
Evidence § 2461, p. 194 (J. Chadbourn rev. ed. 1981)).
The Markman Court explained that judges were
better suited to analyze the meanings of written

15
instruments: “The construction of written instruments
is one of those things that judges often do and are
likely to do better than jurors unburdened by training
in exegesis.” Markman, 517 U.S. at 388−89.
Next, claim construction is a matter of law for the
judge even when it involves extrinsic evidence and
evidentiary underpinnings. Markman expressly acknowledged that claim construction may involve extrinsic
evidence, including expert testimony as well as credibility judgments about testifying experts. Markman,
517 U.S. at 389. But the Supreme Court reasoned that
a jury’s capacity to evaluate expert credibility is
outweighed by a judge’s trained ability to evaluate an
expert’s testimony in relation to the overall structure
of written documents. Id. at 389−90 (“We accordingly
think there is sufficient reason to treat construction
of terms of art like many other responsibilities that
we cede to a judge in the normal course of trial,
notwithstanding its evidentiary underpinnings.”). It
was with these policies in mind that the Court promulgated its rule in Markman: “[T]he construction of a
patent, including terms of art within its claim, is exclusively within the province of the court.” Id. at 372.
More recently, in Teva v. Sandoz, this Court
confirmed that claim construction is for the court and
not the jury. Teva Pharms. USA, Inc. v. Sandoz, Inc.,
574 U.S. 318, 330 (2015). The Teva Court explained
that, “[w]hile we held [in Markman] . . . that the
ultimate issue of the proper construction of a claim
should be treated as a question of law, we also recognized that in patent construction, subsidiary factfinding
is sometimes necessary.” Id. at 326. Nonetheless, “‘the
construction of a patent, including terms of art within
its claim,’ is not for a jury but ‘exclusively’ for
‘the court’ to determine. . . . That is so even where

16
the construction of a term of art has ‘evidentiary
underpinnings.’” Id. at 321 (quoting Markman, 517
U.S. at 390) (emphasis added).
Allowing patent holders to prove infringement merely
by proving compliance with an industry standard—
and without any construction by the district court
tying the patent claims to the standard—contravenes
Markman by creating a “zone of uncertainty” around
the scope of the patent claims, which is expressly what
Markman tried to prevent with its bright-line rules on
claim construction. Markman, 517 U.S. at 390-91.
III. The Federal Circuit’s ruling allowing a
party to obtain an infringement finding by
relying solely on an industry standard and
no claim construction is an error that will
propagate if left unchecked
Allowing patentees to prove infringement simply by
arguing that a patent is standard-essential and that
an accused product is standard-compliant provides an
improper shortcut for patentees to obtain infringement verdicts, often for products that would not
infringe under a proper analysis. This problem is
exacerbated by the ease at which patents can be
declared essential, and the vast number of essential
patents that exist.
A certificate of standard-compliance is not an
indication that a product satisfies every mandatory
requirement of an industry standard, or an indication
that the product meets each and every claim element
of a patent. Significant differences exist in how standards organizations draft standards and the manner in
which product designers later implement the required
functionality. Indeed, standards organizations may
be motivated to set standards for reasons other

17
than technological ones, and patent owners are highly
motivated by financial incentives to compete for inclusion into such standards. See, e.g., Joshua D. Wright,
SSOs, FRAND, and Antitrust: Lessons from the
Economics of Incomplete Contracts, 21 Geo. Mason L.
Rev. 791, 794, 804. Thus, it means little for a patent to
be declared essential and for a device to be standardcompliant.
The concept of standard-essentiality was developed,
not as a legal doctrine related to the law of patent
infringement, but as an economic constraint on licensing demands for patents declared essential to an
industry standard. See Jorge L. Contreras, Essentiality
and Standards-Essential Patents, in THE CAMBRIDGE
HANDBOOK OF TECHNICAL STANDARDIZATION
LAW: COMPETITION, ANTITRUST, AND PATENTS
209, 210 (Jorge L. Contreras ed., 2018) (discussing
American Standards Association policy in the 1950s
of requiring standard-essential patent owners to
“make available to any interested and qualified party
a license on reasonable terms”). When a patent owner
declares its patent essential to a standard-setting
organization such as “3GPP” that drafted the LTE
standard, the organization does not verify whether the
patent truly is essential; it merely accepts the patent
owner at its word. As a consequence, many patents
are declared “essential” when, in fact, they are
not—a phenomenon known as “over-declaration” or
“overdisclosure.” See Mark Lemley & Timothy Simcoe,
How Essential are Standard-Essential Patents? 104
CORNELL L. REV. 607, 628-29 (March 2019) (noting
“evidence that suggests that overdisclosure of SEPs is
common” and that “[w]hen SEPs are asserted in court,
most of them turn out not to be infringed”); Contreras,
supra, at 222−24 (describing factors leading to overdeclaration); Robin Stitzing et al., Over-Declaration of

18
Standard Essential Patents and the Determinants of
Essentiality 10 (2018), available at https://ssrn.com/
abstract=2951617 (explaining that none of the major
standard-setting organizations stipulate a formal process for adjudicating the essentiality of patents, and
that ETSI, the organization that develops the LTE
standard, “calls for patentees to declare, even if in
doubt of the patent’s essentiality”). Additionally, patents
may have certain claims that are essential to the
standard while also having others that are not.
These inconsistent and vague rules are ripe for
abuse. As a result, widespread declarations of essentiality have led to a proliferation of allegedly standardessential patents. By some estimates, more than 40,000
U.S. patents have been declared standard-essential,
and thousands more are declared essential each year.
Justus Baron & Tim Christoph Pohlmann, Mapping
Standards to Patents using Declarations of StandardEssential Patents at 27 J. ECON. & MGMT. STRATEGY
504, 514-15, 534, Figures 2, A2 (2018) (showing “[n]umber
of declared SEPs as to country of publication”).
For these reasons, if used in a patent ligation, the
LTE industry standard must be linked by the court to
the patent claims through claim construction. Without
this check in the system, there can be no certainty
that the industry standard asserted in the litigation
sufficiently overlaps with the scope of the patent.
Purportedly essential patents are ripe for abuse in
patent litigation when used to short-circuit the claim
construction process. If the Federal Circuit’s underlying ruling in this case is allowed to persist, and given
the sheer volume of standard-essential patents, patent
owners will undoubtedly continue to obtain infringement verdicts for accused products that do not practice
all claim limitations. In turn, patent owners will get

19
damages awards that exceed the value of their
patented technology, which is a further violation of
this Court’s precedent. Garretson v. Clark, 111 U.S.
120 (1884) (requiring patent damages award to be
proportional to the scope of the claimed invention).
Magnifying these errors is the self-serving nature of
the standard-setting process. Patent holders inform
standard-setting organizations what patents should
be declared essential, and the analysis often stops
there. There is no guarantee in the standard-setting
process that a third party will formally find that a
patent’s claims are covered by a standard. There must
be some step in this process that allows a defendant to
ensure that the patent asserted against it will be
held to the scope of its claims, and that plaintiffs will
not use the standard-setting process to improperly
broaden patent claim scope during litigation. This
Court’s Markman ruling is the only meaningful
protection that defendants have against these
abuses associated with standard-essential patents. If
Markman is not enforced, and if the underlying
Federal Circuit decision is not overturned, patent
holders will have a loophole that will allow plaintiffs
to run amok in standard-essential patent cases for
years to come.

20
CONCLUSION
For the above reasons, and in view of the importance
of the questions presented herein, the petition for a
writ of certiorari should be granted.
Respectfully submitted,
LIONEL M. LAVENUE
Counsel of Record
FINNEGAN, HENDERSON,
FARABOW, GARRETT
& DUNNER, LLP
1875 Explorer Street
Suite 800
Reston, VA 20190
(571) 203-2750
Lionel.lavenue@finnegan.com
Counsel for Petitioners
May 3, 2021

APPENDIX

1a
APPENDIX A
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
[Filed July 2, 2019]
————
Civ. No. 15-634-JFB
————
GODO KAISHA IP BRIDGE 1,
Plaintiff,

v.

TCL COMMUNICATION TECHNOLOGY HOLDINGS
LIMITED, A Chinese Corporation, TCT MOBILE
LIMITED, a Hong Kong Corporation, TCT MOBILE
(US), INC., A Delaware Corporation, and
TCT MOBILE, INC., A Delaware Corporation,
Defendants.
————
FINAL JUDGMENT
————
Pursuant to the Court’s memoranda and orders on
post-trial motions (D.I. 531 & 532), the jury’s verdict
(D.I. 487), and entry of judgment thereon (D.I. 512),
IT IS ORDERED:
1. Judgment is entered in favor of plaintiff Godo
Kaisha IP Bridge (“IP Bridge”) and against defendants
TCL Communication Technology Holdings Limited,
TCT Mobile Limited, TCT Mobile (US), Inc., and TCT
Mobile, Inc. (collectively, “TCL”) on IP Bridge’s claims
of infringement of claims 9 and 12 of U.S. Patent No.

2a
8,385,239 and claims 15 and 16 of U.S. Patent No.
8,351,538 in the following amounts:
a. $950,000.00 in past damages pursuant to the
jury verdict;
b. $109,304.64 in supplemental damages for the
sales of adjudicated products from March 31, 2018,
to the date of verdict, November 8, 2018;
c. $968,086.96 in damages for a reasonable
royalty of four cents per product per patent on sales
of 12,101,087 infringing nonaccused LTE units
between November 21, 2017, and April 24, 2019;
d. $158,017.76 in prejudgment interest, calculated at the prime rate, compounded quarterly,
from and after July 24, 2015, to January 2, 2019,
on the jury verdict and supplemental damages
awards; plus
e. Post-judgment interest at the statutory rate
under 28 U.S.C. § 1961(a) from and after January
2, 2019, on the $950,000 past damages judgment;
and the $109,304.64 supplemental damages judgment; and
f. Post-judgment interest at the statutory rate
under 28 U.S.C. § 1961(a) from and after the
date of this order on the $968,086.96 sales-ofinfringing nonaccused-LTE-units judgment and
the $158,017.76 prejudgment interest judgment.
2. Plaintiff IP Bridge is entitled to an ongoing reasonable royalty of four cents per product per patent
on sales of the adjudicated products from and after
the date of the verdict, November 8, 2018, to the date
of expiration of the patents at issue.

3a
3. Plaintiff IP Bridge is entitled to an ongoing
reasonable royalty of four cents per product per patent
on sales of TCL’s infringing non-accused LTE units
from and after the date of April 24, 2019, to the date
of expiration of each of the patents at issue.
4. TCL shall provide IP Bridge with an accounting,
as of January 31st of each year, of all U.S. sales during
the preceding twelve months of any TCL products
capable of connecting to an LTE network.
DATED this 2nd day of July 2019.
BY THE COURT:
s/ Joseph F. Bataillon
Senior United States District Judge

4a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
[Filed April 19, 2017]
————
Civ. No. 15-634-SLR
————
GODO KAISHA IP BRIDGE 1,
Plaintiff,

v.

TCL COMMUNICATION TECHNOLOGY HOLDINGS
LIMITED, a Chinese Corporation, TCT MOBILE
LIMITED, a Hong Kong Corporation, TCT
MOBILE (US), INC., a Delaware Corporation and
TCT MOBILE, INC., a Delaware Corporation,
Defendants.
————
MEMORANDUM ORDER
At Wilmington this 19th day of April, 2017, having
heard argument on, and having reviewed the papers
submitted in connection with, the parties’ proposed
claim construction;
IT IS ORDERED that the disputed claim language
of U.S. Patent Nos. 7,373,295 (“the ’295 patent”),
8,351,538 (“the ’538 patent”), and 8,385,239 (“the ’239
patent”) shall be construed consistent with the tenets
of claim construction set forth by the United States
Court of Appeals for the Federal Circuit in Phillips v.
AWH Corp., 415 F.3d 1303 (Fed. Cir. 2005), as follows:

5a
1. ”Pulse vector:” “A sequence of electrical pulses.”
The specification explains that the pulse vector generator generates “[pulse] vectors . . . each having a
signed unit pulse2 [] provided to one element on a
vector axis.” (’295 patent, 6:28-30) With reference to
table 1, the specification describes a rule for generating pulse vectors with pulses located according to a
position vector.3 (Id., 6:46-49, table 1)
1

2. ”Pulse vector generator:”4 § 112, ¶ 6 applies.
Indefinite. When claim language does not employ the
word “means,” the presumption is that § 112, ¶ 6 does
not apply. Williamson v. Citrix Online, LLC, 792 F.3d
1339, 1349 (Fed. Cir. 2015). However, “the presumption can be overcome and § 112, ¶ 6 will apply if the
1

Found in ’295 patent, claims 1-4.

2

The specification recites a “unit pulse,” but does not explain
what it is, or what units of measure are used to define it. The
specification does not clarify whether the “unit pulse” refers to
the magnitude of the vector or to the magnitude of an individual
number in the n-tuple of the vector. Plaintiff argued that the
equation (col 7:15-38) defines “a pulse vector as having a single
pulse.” (D.I. 109 at 5) The declaration of plaintiff’s expert, Paul
Min, PhD (“Dr. Min”), at ¶ 50 as cited does not support this
assertion. (D.I. 111, ¶ 50) The parties agreed that the pulse vector
represents a sequence of electrical pulses.
3

Plaintiff proposed “a vector with at least one pulse” and
argued that there only needs to be a single pulse in a pulse vector.
However, Dr. Min explained that the pulse vector generator
“outputs pulse vectors in accordance with a rule for specifying the
pulse positions and whether those pulses are positive or negative.” (D.I. 111, ¶ 53) Figure 3 shows the pulse vectors as having
either positive or negative values at each “pulse position candidate,” so according to the specification and Dr. Min’s explanation,
the pulse vector cannot have zero values at any of the specified
pulse positions. Plaintiff did not explain how Dr. Min’s opinion
reconciles with plaintiff’s proposed construction.
4

Found in ’295 patent, claims 1-4.

6a
challenger demonstrates that the claim term fails to
recite sufficiently definite structure or else recites
function without reciting sufficient structure for performing that function.” Id. (citations omitted) (internal
quotation marks omitted). Claim 1 recites:
A dispersed pulse vector generator used for
a speech coder/decoder, comprising:
a pulse vector generator configured to
generate a pulse vector having a signed
unit pulse;
a dispersion pattern storage configured
to store a plurality of fixed dispersion
patterns;
a dispersion pattern selector configured to
determine a selected dispersion pattern
of the plurality of fixed dispersion patterns with reference to an adaptive
codebook gain; and
a dispersed pulse vector generator configured to generate a dispersed pulse
vector by convoluting the pulse vector
and the selected dispersion pattern;
the dispersion pattern selector comprising;
a first selector that pre-selects dispersion patterns of the plurality of fixed
dispersion patterns; and
a second selector that determines the
selected dispersion pattern, of the
pre-selected dispersion patterns, to be
convoluted with the pulse vector.

7a
(’295 patent, 28:16-34) The “dispersed pulse vector
generator” comprises (among other things) “a pulse
vector generator” and “a dispersed pulse vector generator;” therefore, the “pulse vector generator” term
is central to the construction of claim 1. Plaintiff
argued that no construction is necessary for “pulse
vector generator,” because “the prefix ‘pulse vector’
imparts [sufficiently definite] structure to the term
‘generator” and that § 112, ¶ 6 does not apply. (D.I.
109 at 5) Plaintiff contended that “the specification
describes a pulse vector generator’s structure by
‘describing the claim limitation’s operation, such as
its input, output, or connections. (Id., citing Apple Inc.
v. Motorola, Inc., 757 F.3d 1286, 1299 (Fed. Cir. 2014))
Defendants’ expert, Nikil Jayant, PhD (“Dr. Jayant”),
opined that § 112, ¶ 6 applies, because the specification “does not disclose any type of structure, neither
physical component nor a software algorithm, for
generating a pulse vector.” (D.I. 131, ¶ 52)
3. The specification discloses that the “pulse vector
generator” generates pulse vectors. (See, e.g., ’295
patent, 6:26-30; 6:46-49; 7:6-9; figure 3, box 101; figure
4, box 216; figure 5, box 312; figure 6, box 416; and
figure 7, box 516) Tables 1 and 2 identify the “pulse
position candidates” for various channels. For example, table 1 shows channel 1 as having pulse position
candidates in the form of an eight-tuple; however, the
pulse position candidates for channels 2 and 3 are
shown as a matrix having two rows and eight columns.
(’295 patent, 6:51-62) The court notes that, aside from
general boxes in “functional block diagram[s],” the
specification does not identify any physical structure
associated with the “pulse vector generator,” nor
does the specification discuss software, processors, or

8a
computers of any kind. Plaintiff contended that Apple
v. Motorola applies, but Dr. Min did not express an
opinion whether the ’295 patent discloses a computer
implemented invention or whether a “pulse vector
generator” would be implemented in software in the
first place. The Federal Circuit has explained that:
5

“Structure” to a person of ordinary skill in the
art of computer-implemented inventions may
differ from more traditional, mechanical
structure . . . . the “structure” of computer
software is understood through, for example,
an outline of an algorithm, a flowchart, or a
specific set of instructions or rules . . . . Structure may also be provided by describing
the claim limitation’s operation, such as its
input, output, or connections. The limitation’s
operation is more than just its function; it is
how the function is achieved in the context of
the invention.
Apple, 757 F.3d at 1298-99.6 Plaintiff argued the
latter, relying on Dr. Min’s opinion that the structure
5

Plaintiff did not argue that a physical structure was identified. The specification does mention “memory” and “switches”
with reference to the “dispersion pattern storage and selection”
functional box. (’295 patent, figure 3, item 102) While plaintiff’s
expert explained that these are computer memory and (ostensibly) electrical switches, nothing in the specification says one way
or another.
6

The applicability of many of the cases cited by plaintiff
depends on this critical (but unestablished) fact. If this invention
is implemented on a computer, and the “pulse vector generator”
is a function defined primarily in software, then the case law
provides an avenue for establishing the applicability of § 112,
¶ 6, determining whether sufficient corresponding structure has
been identified, and for evaluating definiteness under § 112, ¶ 2.
It is worth noting, however, that if a person having ordinary skill

9a
of the “pulse vector generator” is found in its “input,
output, or connections.” (D.I. 111 at ¶ 53) In response,
Dr. Jayant pointed out that:
For example, tables 1 and 2 show that the
positions of pulses within the pulse vectors
may be reflective of an algebraic codebook
table. (’295 Patent, 6:50-63, 27:38-47) However, the specification does not disclose how
those pulse vectors are generated, nor does
it disclose what, other than the amorphous
“pulse vector generator,” generates those
pulse vectors. For example, the specification
does not disclose whether a pulse vector
generator outputs stored pulse vectors in
response to various inputs, or whether a pulse
vector generator synthesizes and outputs
pulse vectors in real-time.
(D.I. 131 at ¶ 53 (emphasis in original)) The specification explains “operation of the . . . excitation vector
generator,” but the explanation of the operation of
the “pulse vector generator” is conclusory: “the pulse
vector generator 101 algebraically generates the
signed pulse vectors corresponding to the number of
channels (three in this embodiment) in accordance
with the rule described in table 1.” (’295 patent, 7:6-9;
see also id., 6:46-49; 9:3-8)
4. Table 1, as discussed above, shows where the
pulses may be placed in a given vector or matrix, but
the specification does not explain the “algebraic”

in the art would expect the pulse vector generator to be implemented in hardware (e.g. electronic circuitry), then such structures would need to be identified.

10a
process by which the pulse vector is generated.7
Column 7 of the specification discusses various relationships involved in generating the excitation vector
in the first embodiment, including a vector di, which
is the “signed pulse vector for channel i.” (Id., 7:32)
In the first embodiment, the vector di may be a
potential output from the pulse vector generator as
identified by a mathematical relationship: “di = ±ߜ
(n — pi), n = 0 — L — 1” where an input, “pi [, is the]
signed pulse vector candidate for channel i.” (Id. at
7:32-34) The specification does not explain whether
this is an algebraic relationship employed by the pulse
vector generator. (Id. at 7:10-57) Plaintiff’s expert, Dr.
Min, explained that +ߜ “is the pulse polarity” and that
“pi is the pulse position candidate for channel i . . . as
shown in table 1.”8 (D.I. 138 at ¶ 8) Drawing upon the
second embodiment, which discloses “a CELP speech

7

At oral argument, plaintiff’s counsel displayed a slide and
explained that:
The next portion of the table [1] says, you need to indicate where the pulse position is, and it indicates here,
for example, Channel 1, the pulse position candidates
are 0, 10, 20, 30, and up to 70. One of ordinary skill in
the art can understand that you can convert that
position and interpret it in bit format. You see on the
right-hand side her[e], it’s very simple. Position 0 could
be converted into 000. Position 10 could be converted
into 0001. And so this, your Honor, is the algorithm.
(D.I. 233 at 31 (citing plaintiff’s demonstrative slide 13)) These
materials do not reflect the intrinsic record or Dr. Min’s opinion.
The court declines to consider them.
8

The specification does not draw this connection between
pi and table 1. The court notes that table 1 uses a different
notation: “P1,” “P2,” and “P3,” and that P2 and P3 refer to matrices
and not vectors. Dr. Min does not discuss these differences in
either of his reports.

11a
coder,” Dr. Min opined that the “combination index for
pulse vectors”10 is the input for the pulse vector
generator. (D.I. 138 at ¶ 5 (citing ’295 patent, 10:1-5;
8:58-59)) The second embodiment builds on the first,
“this embodiment applies the excitation vector generator explained in the first embodiment to the random
codebook of the CELP speech encoder of [figure] 1.”
(’295 patent, 8:40-43) However, nothing in the specification suggests that the applicant intended the
second embodiment to be read into the first to explain
the operation of the example in the first embodiment
so as to impart structure to the “pulse vector generator” in the first embodiment. The parties agreed that
the specification discloses a pulse vector, but the
inputs, outputs, and connections associated with the
pulse vector generator are described at a high level
without sufficient detail to explain how the pulse
vector generator “interacts with other components . . .
in a way that might inform the structural character
of the limitation-in-question or otherwise impart
structure” to the pulse vector generator.11 Williamson,
9

9

The first embodiment discloses an “excitation vector generator.” (’295 patent, 6:16-18) The second embodiment discloses “a
CELP speech coder.” (Id., 8:37-39) Dr. Min does not explain why
these two disclosures should be read together to explain the algebraic function that defines how the pulse vector generator operates in the first embodiment.
10

This “input” is also described as the “combination index for
pulse positions and pulse polarities.” (’295 patent, 8:58-59) By
definition, the combination index may be related to pi as articulated in the first embodiment.
11

At best, the specification and Dr. Min provide insight into
the mathematical relationships between some of the (possible)
inputs into the “pulse vector generator” and some of the (possible)
outputs, but none of this information relates to the structure of
the “pulse vector generator” itself.

12a
792 F.3d at 1351. For these reasons, the court concludes that defendants have rebutted the presumption
against means-plus-function claiming. Therefore,
“pulse vector generator” is governed by § 112, ¶ 6.
5. When § 112, ¶ 6 applies, a “claim shall be construed to cover the corresponding structure, material,
or acts described in the specification and equivalents
thereof.” 35 U.S.C. § 112, ¶ 6. “A patent is invalid
for indefiniteness if its claims, read in light of the
specification delineating the patent, and the prosecution history, fail to inform, with reasonable certainty,
those skilled in the art about the scope of the
invention.” Nautilus, Inc. v. Biosig Instruments, Inc.,
134 S. Ct. 2120, 2124 (2014). Construing a claim under
§ 112, ¶ 6 “is a two-step process. The court must first
identify the claimed function. Then, the court must
determine what structure, if any, disclosed in the
specification corresponds to the claimed function.”
Williamson, 792 F.3d at 1351. Means-plus-function
claim language is indefinite “if a person of ordinary
skill in the art would be unable to recognize the
structure in the specification and associate it with the
corresponding function in the claim.” Id. at 1352
(citation omitted).
6. The parties agree that the pulse vector generator
performs the function of “generat[ing] a pulse vector
having a signed unit pulse.” (’295 patent, 28:18-19;
D.I. 130 at 7; see also D.I. 109 at 6) Dr. Min explained
that “a person skilled in the art would associate the[]
pulse generation rules [as in tables 1 and 2 and
elsewhere in the specification] as the structures
corresponding to the recited function.” (D.I. 111, ¶ 56)
Dr. Jayant opined that “the specification does not
disclose corresponding structure for performing . . .
[the] function,” and that tables 1 and 2 merely “show

13a
that the positions of pulses within the pulse vectors
may be reflective of an algebraic codebook table”
without disclosing how to generate pulse vectors. (D.I.
131, ¶¶ 52-53) In the first embodiment, “the pulse
vector generator 101 algebraically generates [three]
pulse vectors in accordance with the rule described in
table 1.” (’295 patent, 6:46-48; see also id., 7:6-9) The
specification refers to table 1 as “a pulse generation
rule.” (Id., 8:22-28; 9:3-8; 9:25; 9:39) The seventh
embodiment discloses another set of candidate
positions for the pulses: “[t]he five signed unit pulses
constituting the random vector have pulses each
selected from the candidate positions defined for each
of zero to fourth groups shown in table 2.” (’295 patent,
27:28-30) Taken together, tables 1 and 2 are rules
for where, in vector space, individual pulses may be
located; however, neither table 1 nor table 2 describes
an algorithm12 governing the operation of the pulse
vector generator.
7. Plaintiff argued that “the prefix ‘pulse vector’
imparts structure to the term ‘generator.’ (D.I. 109 at
5) Defendants responded that “[t]he prefix ‘pulse
vector’ does nothing more than restate the specified
function of the ‘generator.’ (D.I. 143 at 1) “Pulse
vector” cannot impart corresponding structure to
“generator,” because “purely functional language,
which simply restates the function associated with the
means-plus-function limitation, is insufficient to
provide the required corresponding structure.” Noah
Sys., Inc. v. Intuit Inc., 675 F.3d 1302, 1317 (Fed. Cir.
12

The specification discloses algorithms. (See, e.g., ’295 patent,
16:46-48, figure 9 (“vector quantization algorithm”)) Table 1 is
identified as a “rule” and nothing in the record suggests that the
applicant intended for the “rule” of table 1 or the “pulse position
candidates” of table 2 to disclose an algorithm.

14a
2012) (citations omitted). Plaintiff responded that “the
term is not indefinite because the specification discloses ‘a specific set of instructions or rules’ for
generating pulse vectors.”13 (D.I. 137 at 3, quoting
Apple, 757 F.3d at 1298) Plaintiff contended that “the
specification ‘disclose[s] adequate defining structure
to render the bounds of the claim understandable
to one of ordinary skill in the art.’ (D.I. 137 at 4,
quoting AllVoice Computing PLC v. Nuance Commc’ns,
Inc., 504 F.3d 1236, 1245 (Fed. Cir. 2007)) AllVoice
Computing is inapposite, because the specification
in AllVoice included an algorithm described in a flow
chart in figure 8A, and the patentee’s expert “set forth
several straightforward ways that the algorithm
represented in figure 8A could be implemented by one
skilled in the art using well-known features of the
Windows operating system.”14 AllVoice Computing,
504 F.3d at 1345. Plaintiff argued that “a person of
ordinary skill in the art15 would have been familiar

13

This citation to Apple relates to the question of whether
§ 112, ¶ 6 applies and not to whether “a specific set of instructions
or rules” can provide sufficient corresponding structure to avoid
indefiniteness.
14

It is not clear that the invention of the ’295 patent is implemented in software. In its reply brief, plaintiff argued (by analogy
to Apple, 757 F.3d 1286) that “a ‘pulse vector generator’ is a
[computer software] algorithm.” (D.I. 137 at 2) However, the
specification does not mention computers, processors, or software. Dr. Min opined that “memory” is computer memory and
that “switch” is either an electrical component or something
implemented in software. (D.I. 111, ¶¶ 64-74) Dr. Jayant disagreed. (D.I. 131, ¶ 66)
15

The parties agreed that a person having ordinary skill in the
art “would have had at least the equivalent of a master’s degree
in electrical engineering or related discipline, or at least [three]
years of practical or research experience in the field of digital

15a
with algebraic codebook tables, such as the ones in
tables 1 and 2, and understood how a pulse vector
generator inserts a non-zero number representing a
pulse into at least one of the pulse position candidates
shown in the tables.” (D.I. 137 at 3 (citing D.I. 138,
¶¶ 6-9)) Defendants argued that plaintiff cannot “rely
on the knowledge of one of skill in the art to compensate for the lack of disclosure in the ’295 patent
itself.” (D.I. 143 at 3 & n.2, citing Function Media, LLC
v. Google, Inc., 708 F.3d 1310, 1319 (Fed. Cir. 2013);
Aristocrat Techs. Australia Pty Ltd. v. Intl Game Tech.,
521 F.3d 1328, 1336-37 (Fed. Cir. 2008)) The Court
in Aristocrat distinguished AllVoice Computing and
explained that “[t]he question [] is not whether the
algorithm that was disclosed was described with
sufficient specificity, but whether an algorithm was
disclosed at all.” Aristocrat, 521 F.3d at 1337. The
Aristocrat court explained that
the proper inquiry for purposes of § 112, 6
analysis is to look at the disclosure of the
patent and determine if one of skill in the art
would have understood that disclosure to
encompass software to perform the function
and been able to implement such a program,
not simply whether one of skill in the art
would have been able to write such a software
program.
Id. (citations and quotations omitted). Dr. Min did not
explain that the ’295 patent discloses software, nor
did he express the opinion that a person having
ordinary skill in the art would recognize tables 1 and
2 as disclosing computer-implemented algorithms.
signal processing for speech or audio applications.” (D.I. 131,
¶ 36; D.I. 111, ¶ 46)

16a
Instead, Dr. Min opined that “the term ‘pulse vector
generator’ connotes an algorithm,” and that “a person
of ordinary skill would understand [mathematically]
how a pulse vector generator generates pulse vectors.”16 (D.I. 111, ¶ 54; D.I. 138, ¶ 5) In light of Aristocrat, the distinction here is between understanding
the mathematical operation involved in calculating a
pulse vector and understanding the patent specification as describing software to perform the function
(and being able to program a computer to perform the
function) associated with the pulse vector generator.
Based upon the extrinsic record at hand, Dr. Min has
established the former and not the latter.17 Under
§ 112, ¶ 6, the term “pulse vector generator” lacks
sufficient disclosure of structure and, therefore, is
indefinite under § 112, ¶ 2, because it “fail[s] to inform,
with reasonable certainty, those skilled in the art
about the scope of the invention.” Nautilus, 134 S. Ct.
at 2124.
8. ”Dispersion pattern storage:”18 “Memory for storing dispersion patterns.” Section 112, ¶ 6 does not

16

See Blackboard, Inc. v. Desire2Learn, Inc., 574 F.3d 1371,
1385 (Fed. Cir. 2009) (“A patentee cannot avoid providing specificity as to structure simply because someone of ordinary skill in
the art would be able to devise a means to perform the claimed
function. To allow that form of claiming under § 112, ¶ 6, would
allow the patentee to claim all possible means of achieving a
function.”).
17

There is no evidence in the record that a person having
ordinary skill in the art would also be able to program the
software necessary to create a computer-implemented “pulse
vector generator,” if such a structure were implemented on
computer.
18

Found in ’295 patent, claims 1 and 3.

17a
apply. Not indefinite. The specification discloses
that “[a] memory stores at least one type of dispersion
pattern for each of the channels.”20 (’295 patent,
abstract; figure 3, items 102, M1, M2, and M3)
19

9. “Dispersion pattern selector:”21 “Switch for selecting a dispersion pattern.” Section 112, ¶ 6 does not
apply.22 Not indefinite. The specification recites sufficiently definite structure. For example, figure 3
discloses “a dispersion pattern storing and selecting
section 102 having dispersion pattern storing sections
and switches.” (’295 patent, 6:20-22; see also figure
3, items 102, SW1, SW2, and SW3; 6:31-37; 6:66-7:5;
8:66-9:3; 11:31-41; 11:50-57; and 12:44-13:2) Extrinsic
evidence: Dr. Min explained that figure 3 “graphically
represents a switch that selects a dispersion pattern
from multiple dispersion patterns” and that a person
of ordinary skill in the art would recognize that the
selector is a switch. (D.I. 111, ¶¶ 64-66)
10. “A first selector:”23 Section 112, ¶ 6 does not
apply.24 Not indefinite. Claim 1 recites “a first selector
19

In order to rebut the presumption that § 112, ¶ 6 does not
apply, defendants carry the burden to demonstrate “that the
claim term fails to ‘recite sufficiently definite structure’ or else
recites ‘function without reciting sufficient structure for performing that function. Williamson, 792 F.3d at 1349 (citations omitted). Defendants failed to rebut the presumption.
20

Dr. Min explained that a person having ordinary skill in the
art would recognize “dispersion pattern storage” as “memory.”
(D.I. 111, ¶¶ 60-63)
21

Found in ’295 patent, claim 1.

22

See supra note 19.

23

Found in ’295 patent, claim 1.

24

Dr. Min opined that “a first selector” would be understood
by a person having ordinary skill in the art as “a first switch.”
(D.I. 111, ¶ 64) Dr. Jayant explained “that the terms “dispersion

18a
that pre-selects dispersion patterns of the plurality
of fixed dispersion patterns.” (’295 patent, 28:30-31)
Figure 3 discloses “a dispersion pattern storing and
selecting section 102 having dispersion pattern storing
sections and switches.” (’295 patent, 6:20-22; see also
figure 3, items 102, SW1, SW2, and SW3) The
“switches SW1 to SW2 [are] for selecting one kind of
dispersion pattern from M kinds of dispersion patterns
stored in the respective storing sections M1 to M3.”
(’295 patent, 6:34-37) Moreover, “in the CELP speech
coder using the excitation vector generator of the first
embodiment in the random codebook, a pre-selection
for dispersion patterns stored in the dispersion
pattern storing and selecting section is carried out . . .
before searching the index of random codebook.” (’295
patent, 11:52-57 (emphasis added)) While the specification does not identify which specific switch is the
first selector, the specification discloses an algorithm
for the operation of the first selector:
[W]hen the adaptive codebook gain is larger
than the threshold value as a result of the
comparison, the control signal provides an
instruction to select the dispersion pattern
obtained by the pre-training to reduce the
quantization distortion in vector quantization
processing for random excitations. Also, when
the adaptive code gain is not larger than the
threshold value as a result of the comparison,
the control signal provides an instruction to
carry out the pre-selection for the dispersion

pattern selector,” “a first selector,” and “a second selector” (i.e.,
“the ‘selector’ elements”) are not understood by persons of ordinary skill in the art to have sufficiently definite meanings as the
names for structure.” (D.I. 131, IT 63)

19a
pattern different from the dispersion pattern
obtained from the result of the pretraining.
(’295 patent, 12:49-59) For these reasons, § 112, ¶ 6
does not apply. See Williamson, 792 F.3d at 1349.
11. ”A second selector:”25 Section 112, ¶ 6 applies.
Indefinite. Claim 1 recites “a second selector that
determines the selected dispersion pattern, of the preselected dispersion patterns, to be convoluted with the
pulse vector.” (’295 patent, 28:32-34) The specification
explains that “[t]he pulse vector dispersion section
103 performs convolution of the pulse vectors output
from the pulse vector generator and the dispersion
patterns output from the dispersion pattern storing
and selecting section 102 in every channel so as to
generate N dispersed vectors.” (’295 patent, 6:38-43)
The specification does not mention “a second selector,”
and the specification contains no algorithms describing the operation of “a second selector.”26 Therefore,
§ 112, ¶ 6 applies. See Williamson, 792 F.3d at 1349.
12. Construing a claim under § 112, ¶ 6 “is a twostep process. The court must first identify the claimed
function. Then, the court must determine what structure, if any, disclosed in the specification corresponds
to the claimed function.” Williamson, 792 F.3d at 1351.
Means-plus-function claim language is indefinite “if a
25
26

Found in ’295 patent, claim 1.

Plaintiff argued that the specification “describes that each
switch in figure 3 can be replaced with two switches—a first
switch for pre-selecting one group of dispersion patterns, and a
second switch for selecting from the pre-selected group a dispersion pattern with a certain index.” (D.I. 109 at 11-12 (citing ’295
patent, 11:50-57)) The cited passage does not identify any structures, nor does it discuss the function associated with “a second
selector” as described in the claims.

20a
person of ordinary skill in the art would be unable
to recognize the structure in the specification and
associate it with the corresponding function in the
claim.” Id. at 1352 (citation omitted). The function of
“a second selector,” under § 112, ¶ 6, is “determin[ing]
the selected dispersion pattern, of the pre-selected
dispersion patterns, to be convoluted with the pulse
vector.” The structural relationships are described as
follows:
The pulse vector dispersion section 103 performs convolution of the pulse vectors output
from the pulse vector generator 101 and the
dispersion patterns output from the dispersion pattern storing and selecting section 102
in every channel so as to generate N dispersed
vectors.
(’295 patent, 6:38-42) A “second selector” is located
somewhere within the “dispersion pattern storing
and selecting section 102” in the functional block
diagram, figure 3. However, the specification does not
identify a structure corresponding to “a second selector” within the dispersion pattern storing and selecting section. Plaintiff did not identify how “a second
selector” “determines the selected dispersion pattern,”
and Dr. Min’s declarations provided no additional
insight. (D.I. 111, ¶¶ 64-74; D.I. 138, ¶¶ 14-15) For
these reasons, “a second selector” as construed under
§ 112, ¶ 6 is indefinite under § 112, ¶ 2.
13. “An arranging unit:”27 “Circuitry or a combination of circuitry and software that operates to insert
signals into symbols of a CQI transmission slot.”

27

Found in ’538 patent, claims 9 and 14.

21a
Section 112, ¶ 6 does not apply.28 Not indefinite. Claim
9 recites:
A radio communication apparatus comprising:
....
an arranging unit configured to arrange
two reference signals (RS), which are produced by multiplying two reference signal
sequences with values having opposite
phases from each other, in the Nth symbol
and the Mth symbol of a CQI signals transmission slot, and to arrange channel quality indicator (CQI) signals in symbols of the
CQI signals transmission slot other than
the Nth symbol and the Mth symbol, . . .
(‘538 patent, 18:60-19:17) The claim language itself
provides sufficiently definite structure for “an arranging unit” “by describing the claim limitation’s operation, such as its input, output, or connections.” Apple,
757 F.3d at 1299. The specification, with reference to
figures 5 and 8-11, also demonstrates the input,
output, or connections associated with the “arranging
unit.” Defendants have failed to rebut the presumption that § 112, ¶ 6 does not apply.29
14. “Format for transmitting an ACK/NACK
signal:”30 “A first slot structure for transmitting an
ACK/NACK signal.” Claim 10 depends on claim 9,
which recites:

28

See supra note 19.

29

Defendants relied solely on the application of § 112, ¶ 6 as
their basis for indefiniteness. (See D.I. 130 at 21-23; D.I. 143 at
11)
30

Found in ’538 patent, claim 10.

22a
A radio communication apparatus comprising
a transmitting unit configured to transmit
the spread ACK/NACK signal in the
ACK/NACK signal transmission slot;
an arranging unit configured to arrange
two reference signals (RS), which are produced by multiplying two reference signal
sequences with values having opposite
phases from each other, in the Nth symbol
and the Mth symbol of a CQI signals
transmission slot, and to arrange channel
quality indicator (CQI) signals in symbols
of the CQI signals transmission slot other
than the Nth symbol and the Mth symbol, . .
(‘538 patent, 18:60-19:15) The slot structure associated with the ACK/NACK signal is disclosed in claim
9 and in the specification. (‘538 patent, 19:5-6; figures
1, 8, 9, 10, and 11) Claims 9 and 10 are not limited
to the transmission of a reference signal in the
ACK/NACK signal transmission slot.31 For example,

31

The parties argued the construction of claims 10 and 15
together. Plaintiff had proposed “a slot structure for transmitting
an ACK/NACK signal and a reference signal.” (D.I. 102 at 7)
Neither party addressed the differences between these two
claims as it relates to the inclusion of a reference signal in the
ACK/NACK signal. Plaintiff contended that the specification
explicitly includes “‘reference signal[s]’ in the ACK/NACK and
CQI formats.” (D.I. 109 at 24) Plaintiff clarified that “all of the
embodiments of the ’538 patent discuss the reference signals, as
their positions are critical to the claimed invention.” (D.I. 137 at
12 (emphasis in original)) Defendants responded that the intrinsic record provides “no evidence of a ‘clear intention’ to include . . .
[the reference signal] limitations in the meaning of ‘format- and
that it is improper to import the “slot structure” limitation into
the claims. (D.I. 130 at 24-25) As discussed herein, the differing

23a
claim 10 distinguishes between “the spread ACK/NACK
signal in the ACK/NACK signal transmission slot”
and “the reference signals (RS) and the CQI signals
arranged in the CQI signals transmission slot.” (‘538
patent, 19:21-24)
15. ”Format for transmitting an ACK/NACK
signal:”32 “A first slot structure for transmitting an
ACK/NACK signal and a reference signal.” Claim 15
depends on claim 14, which recites:
A radio communication apparatus comprising: . . . .
an arranging unit configured to arrange the
spread ACK/NACK signal in the 1st, 2nd,
6th and 7th symbols of the ACK/NACK
signal transmission slot and to arrange
first reference signals (1st RS) in 3rd, 4th
and 5th symbols of the ACK/NACK signal
transmission slot; and
a transmitting unit configured to transmit
the ACK/NACK signal and the first reference signals (1st RS) arranged in the
ACK/NACK signal transmission slot, . . .
(‘538 patent, 20:1-21) This specific slot structure
associated with the ACK/NACK signal is disclosed in
claim 14 and in the specification. (‘538 patent, 20:1418; figures 1, 8, 9, 10, and 11) Claim 14 includes the
limitation that the ACK/NACK signal transmission
slot includes symbol positions for a reference signal.
Claim 15 recites:

limitations of claims 10 and 15 support different constructions of
the relevant terms.
32

Found in ’538 patent, claim 15.

24a
The radio communication apparatus according to
claim 14, wherein
the transmitting unit transmits the
ACK/NACK signal and the first reference
signals (1st RS) arranged in the
ACK/NACK signal transmission slot or the
second reference signals (2nd RS) and the
CQI signals arranged in the CQI signals
transmission slot using a physical resource
that supports a mixture of a format for
transmitting an ACK/NACK signal and a
format for transmitting CQI signals.
(‘538 patent, 20:32-41) Claim 15 includes the limitation that the ACK/NACK signal is transmitted with
the first reference signals.
16. ”Format for transmitting CQI signals:”33 “A
second slot structure for transmitting the CQI signals
and the reference signals.” “Format for transmitting
CQI signals:”34 “A second slot structure for transmitting the CQI signal and the second reference signals.”
A slot structure is described in the claims and the
specification. (’538 patent, 19:10-14; 19:23-24; 20:2232; 20:37-38; figures 5, 8, 9, 10, 11, and 16) In claim
10, reference signals and CQI signals are arranged
and transmitted in the “CQI signals transmission
slot.” (’538 patent, 19:15-17; 19:23-24) Claim 15 (including the second reference signals) is similarly limited.
(’538 patent, 20:22-29; 20:36-38)
17. ”A physical resource that supports a mixture of
a format for transmitting an ACK/NACK signal and a

33

Found in ’538 patent, claim 10.

34

Found in ’538 patent, claim 15.

25a
format for transmitting CQI signals:”35 “A physical
resource that supports transmitting, at the same
time, a first slot structure for transmitting the spread
ACK/NACK signal, and a second slot structure for
transmitting the CQI signals and the reference
signals.” “A physical resource that supports a mixture
of a format for transmitting an ACK/NACK signal and
a format for transmitting CQI signals:”36 “A physical
resource that supports transmitting, at the same time,
a first slot structure for transmitting an ACK/NACK
signal and the first reference signals, and a second
slot structure for transmitting the CQI signals and the
second reference signals.” The ACK/NACK signal
transmission slot and the CQI signals transmission
slot are transmitted at the same time. Plaintiff argued
that the construction of “mixture” “incorporates the
limitation that the formats must be sent ‘at the same
time.- (D.I. 109 at 24) Defendants’ expert, Dr. Stephen
B. Wicker (“Dr. Wicker”), opined that “[r]esource
blocks are made up of multiple resource elements, not
all of which are transmitted simultaneously. Each
symbol within a single slot is transmitted consecutively. Two signals can be transmitted in those
symbols within the same resource block, but sent
consecutively, rather than simultaneously.” (D.1.133,
¶ 65) Based upon this explanation, defendants contended that the ACK/NACK signal and the CQI signals can be sent “at different times.” (D.I. 130 at 25)
18. The specification discusses the background art
in which the “ACK/NACK signal is transmitted to
the base station using an uplink control channel such
as a PUCCH (Physical Uplink Control Channel’).”
35

Found in ’538 patent, claim 10.

36

Found in ’538 patent, claim 15.

26a
(’538 patent, 1:22-24) It is possible “to “code-multiplex
ACK/NACK signals from a plurality of mobile stations
by spreading using ZC (Zadoff-Chu) sequences and
Walsh sequences.”37 (’538 patent, 1:46-49) The specification identifies the problem to be solved as: “in a
PUCCH of [the] 3GPP LTE [specification], not only the
above-described ACK/NACK signals but also CQI
(Channel Quality Indicator) signals are multiplexed.”
(’538 patent, 3:24-26) However, “Walsh sequences are
not applicable to CQI signals and therefore the Walsh
sequences cannot be used to separate an ACK/NACK
signal and CQI signal,” but it is possible to separate
these signals with “little inter-code interference” by
using ZC sequences to despread an ACK/NACK signal
and CQI signal spread using ZC sequences associated
with different cyclic shifts.” (’538 patent, 3:32-40)
The specification explains that, “when dispreading is
performed using ZC sequences to separate a CQI
signal from an ACK/NACK signal, a little inter-code
interference from the ACK/NACK signal remains.”
(’538 patent, 3:47-50) Specifically, with respect to
reference signals (“RS”):
As shown from FIG. 1 and FIG. 5, an
ACK/NACK signal and CQI signal employ
different signal formats and their RSs are
defined in different positions (that is, the positions of these RS are optimized independently
in case where only an ACK/NACK signal is
received and in case where only a CQI signal
is received). Therefore, there is a problem
that the amount of interference from an
ACK/NACK signal to RSs of a CQI signal
varies depending on the content of data of the
37

The court notes that code-division multiplexing is a method
of multiplexing signals that are sent at the same time.

27a
ACK/NACK signal or the phases of W 1 and
W 2 used for the ACK/NACK signal. That
is to say, even though RSs are important
portions for receiving a CQI signal, there is a
possibility that the amount of interference in
these RSs cannot be predicted, thereby
deteriorating CQI receiving performance.
(’538 patent, 3:50-63) This interference is the result of
transmitting the two signals (ACK/NACK and CQI) at
the same time. According to the specification, the
solution to this interference involves “add[ing] a phase
according to part of the orthogonal sequence [used to
spread the ACK/NACK signal], to a reference signal of
a channel quality indicator signal including the
reference signal to which the phase is added.” (’538
patent, 4:11-17) In claims 9 and 14, the “arranging
unit” adds this phase to the reference signals transmitted in the CQI signals transmission slot. (’538
patent, 19:7-14; 20:14-18; 20:22-29) Nothing in the
specification or the claims suggests that, within the
scope of claims 10 and 15, the ACK/NACK signal
transmission slot and the CQI signals transmission
slot are transmitted sequentially or at different
times.38
19. “Multiplexing the aperiodic channel quality
indicator report, with data:”39 “Multiplexing the aperiodic channel quality indicator report with user data.”
“Without multiplexing the aperiodic channel quality
38

The specification mentions that there are situations where
the ACK/NACK signal and the CQI signals are transmitted at
different times, but the problem the ’538 patent seeks to solve is
what happens when these two signals are transmitted at the
same time.
39

Found in ’239 patent, claim 8.

28a
indicator report with data:”40 “Without multiplexing
the aperiodic channel quality indicator report with
user data.” The mobile station (“MS”) or user equipment (“UE”) transmits a “channel quality indicator”
(“CQI”) report to the base station. (’239 patent, 1:2021; 9:30-32) Based upon the quality of channel, the
aperiodic CQI may be transmitted from the UE to the
base station with or “without multiplexing with user
data.”41 (’239 patent, 10:56-61)
20. The court has provided a construction in quotes
for the claim limitations at issue. The parties are
expected to present the claim construction consistently with any explanation or clarification herein
provided by the court, even if such language is not
included within the quotes.
/s/ [Illegible]
Senior United States District Judge

40
41

Found in ’239 patent, claim 8.

The specification states that “in case a data buffer at the UE
is non-empty, user data and CQI are multiplexed with each
other.” (’239 patent, 8:43-44 (emphasis added)) “It is desirable to
define a control signaling scheme . . . , wherein the [aperiodic
CQI] report only contains CQI information, i.e. without multiplexing the CQI information with Uplink Shared Channel data.”
(’239 patent, 9:30-34) “One main aspect of the invention is to use
a selected transport format for CQI report in a predetermined
reporting mode just in selected conditions. More generally, a
control channel signal from a base station to a terminal is
defined, which comprises a selected transport format, which is to
be used by the terminal for user data transmission to the base
station.” (’239 patent, 9:49-54 (emphasis added))

29a

This page intentionally left blank.

30a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
[Filed January 2, 2019]
————
Civ. No. 15-634-JFB
————
GODO KAISHA IP BRIDGE 1,
v.

Plaintiff,

TCL COMMUNICATION TECHNOLOGY HOLDINGS
LIMITED, A Chinese Corporation, TCT MOBILE
LIMITED, a Hong Kong Corporation, TCT
MOBILE (US), INC., A Delaware Corporation, and
TCT MOBILE, INC., A Delaware Corporation,
Defendants.
————
ORDER
This matter is before the Court on the defendants’
motion for judgment as a matter of law on willful
infringement (D.I. 469). For reasons stated on the
record,
IT IS HEREBY ORDERED AND ADJUDGED that
the motion for judgment as a matter of law (D.I. 469)
is denied as stated on the record at trial.
DATED this 31st day of December 2018.
BY THE COURT:
s/ Joseph F. Bataillon
Senior United States District Judge

31a
APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
[Filed April 26, 2019]
————
Civ. No. 15-634-JFB
————
GODO KAISHA IP BRIDGE 1,
Plaintiff,

v.

TCL COMMUNICATION TECHNOLOGY HOLDINGS
LIMITED, A Chinese Corporation, TCT MOBILE
LIMITED, a Hong Kong Corporation, TCT MOBILE
(US), INC., A Delaware Corporation, and
TCT MOBILE, INC., A Delaware Corporation,
Defendants.
————
MEMORANDUM & ORDER
This matter is before the Court on a motion for posttrial relief filed by plaintiff Godo Kaisha IP Bridge 1
(“IP Bridge”) (D.I. 504). This action was tried to a jury
from October 30, 2018, to November 8, 2018, on IP
Bridge’s claim that TCL’s accused mobile phone
devices infringed claims 9 and 12 of U.S. Patent No.
8,385,239 (“the ’239 patent”) and claims 15 and 16 of
U.S. Patent No. 8,351,538 (“the ’538 patent”).
I. BACKGROUND
The jury found that TCL infringes all four asserted
claims, found all four claims valid, and awarded

32a
damages in the amount of $950,000 for both patents.1
D.I. 487, Verdict (sealed) at 4. The jury rejected IP
Bridge’s willfulness claim. Id. at 2.
The parties agree that each of the accused products
is capable of connecting to a LTE network in the
United States. D.I. 430, PTO, Ex. 1, Joint Statement
of Uncontested Facts at 20. Evidence adduced at trial,
apparently credited by the jury, established that
without practicing the asserted patent claims, an LTE
phone will not work. The jury’s verdict in favor of IP
Bridge reflects a finding that products that are capable
of using and communicating over LTE networks
infringe the asserted claims because the asserted
claims have been found to be essential to mandatory
portions of the LTE standard. Thus, the evidence
establishes that there is no colorable difference
between other TCL LTE products and the accused
products as they relate to the patent claims at issue.
The record shows that IP Bridge sought damages
in the form of a reasonable royalty based on sales
data disclosed during discovery and sought ongoing
royalties absent an injunction. The experts expressed
opinions on reasonable royalty rates as applied to
revenue from infringing sales up to March 31, 2018.
The jury was instructed: “[i]f you find that IP Bridge
has established infringement, IP Bridge is entitled to
at least a reasonable royalty to compensate it for that
infringement.” D.I. 481, Initial Jury Instructions at
45, Instruction No. 36. The Court further instructed
the jury:
A royalty is a payment made to a patent
holder in exchange for the right to make, use,
1

That figure represents a FRAND royalty rate of four cents
per patent per infringing product.

33a
or sell the claimed invention. A reasonable
royalty is the amount of royalty payment that
a patent holder and the alleged infringer
would have agreed to in a hypothetical
negotiation taking place at a time prior to
when the infringement first began.
Id., Instruction No. 37. The jury was also instructed,
in determining damages to consider whether the
asserted patent “is a standard essential patent, that
is, the LTE wireless communications standard cannot
be practiced without infringing the patent.” D.I. 483,
closing Jury Instructions at 4, Instruction No. 46. The
verdict form asked: “What has IP Bridge proven, by a
preponderance of the evidence, to be a fair, reasonable,
and non-discriminatory (‘FRAND’) royalty for use of
the invention covered by all of the infringed and valid
Asserted Patent(s)?” D.I. 512, Verdict at 4. The verdict
form, without objection from either party, did not
require the jury to determine a per unit royalty rate.
In its motion for post-trial relief, IP Bridge moves to
amend the judgment under Federal Rule of Civil
Procedure 59(e). IP Bridge seeks: (1) supplemental
damages and an accounting of infringing sales of all
adjudicated products through the date of the verdict;
(2) prejudgment interest calculated at the prime rate,
compounded quarterly, and postjudgment interest at
the legal rate on sales of adjudicated products;2 (3)
ongoing royalties, at three times the rate found by the
jury, for all TCL LTE products, both adjudicated and

2

The parties agree that TCL was provided with notice of
infringement of the asserted patents later than July 24, 2015
when IP Bridge filed its complaint. D.I. 430, Pretrial Order, Ex.
1, Joint Statement of Uncontested Facts at 3.

34a
non-adjudicated; (4) enhanced (trebled) past damages
due to exceptional circumstances including litigation
misconduct; and (5) fees and costs to make IP Bridge
whole.
3

IP Bridge argues that it is entitled to supplemental
damages to cover sales between the date of the last
produced sales data (on which the jury based its
determination) and the date of the verdict. It seeks
prejudgment interest at the prime rate as a more
appropriate measure of the harm it suffered as a result
of the infringement. Further, it contends it is entitled
to ongoing royalties to account for TCL’s continued
infringement of the asserted patents for both the
adjudicated products and other TCL LTE products.4 It
also argues royalty rate should be trebled with respect
to post-verdict damages to account for changed
circumstances, TCL’s pre-complaint “hold-out,” and
the ongoing infringement. Also, IP Bridge argues that
enhanced (trebled) past damages are warranted,
despite the jury’s finding of no willful infringement,
due to TCL conduct in failing to negotiate a license to
SEPs subject to FRAND obligations. Last, IP Bridge
contends that the exceptional nature of this case
warrants the award of attorneys’ fees, and nontaxable
costs and expenses under 35 U.S.C. § 285.
In response, TCL concedes that IP Bridge is entitled
to post judgment interest at the legal rate under 28
U.S.C. § 1961, but opposes IP Bridge’s motion in all
3

IP Bridge also asks that the Court award supplemental
discovery and an accounting regarding the identity and sales of
non-accused LTE products.
4

Adjudicated products are identified in Exhibit 15 to the Joint
Pretrial Order (collectively, the “Accused Products”). D.I. 430-2,
Pretrial Order, Ex. 15.

35a
other respects. It challenges IP Bridge’s interest
arguments, contending that any award of prejudgment interest should use the T-bill rate compounded
annually, rather than the prime rate compounded
quarterly. It also argues that there is no legal support
for ongoing royalties’ damages for unadjudicated
products or for an award of enhanced damages in the
absence of a finding of willful infringement. In its
Answering Brief, TCL includes a request for fees and
costs for preparing its opposition to IP Bridge’s motion,
under either 35 U.S.C. § 285 or the Court’s inherent
authority. D.I. 514, Brief at 20. TCL contends that IP
Bridge’s motion is “exceptional” because it is meritless
and vexatious.
II. LAW
A. Standard of review
Federal Rule of Civil Procedure 59(e) expressly
recognizes a court’s authority to alter or amend its
judgments. Fed. R. Civ. P. 59(e). “Consistently with
this original understanding, the federal courts generally have invoked Rule 59(e) only to support reconsideration of matters properly encompassed in a
decision on the merits[,]” and legal issues collateral to
the main cause of action. White v. New Hampshire
Dep’t of Emp’t Sec., 455 U.S. 445, 451 (1982). The
principal limitation on that discretion is that a motion
to amend “may not be granted where to do so would
undermine the jury’s fact-finding role and trample
on the defendant’s Seventh Amendment right to a
jury trial.” Robinson v. Watts Detective Agency, Inc.,
685 F.2d 729, 742 (1st Cir. 1982).
Specifically, Rule 59(e) has been invoked to correct
damage awards that were improperly calculated, and
to include prejudgment interest to which a party was

36a
entitled. See Lubecki v. Omega Logging, Inc., 674 F.
Supp. 501 (W.D. Pa. 1987), aff’d, 865 F.2d 251 (3d
Cir. 1988); 11 Wright and Miller, Federal Practice and
Procedure, § 2817 n. 28– 29.
The rule governing motions to alter or amend
judgment is the proper basis for bringing a request for
prejudgment interest. J.A. McDonald, Inc. v. Waste
Sys. Int’l Moretown Landfill, Inc., 247 F. Supp. 2d
542, 546 (D. Vt. 2002). The method used to calculate
amount of judgment and prejudgment interest involves
matters of law and is based on undisputed facts, and
therefore is appropriately resolved by way of a motion
to amend judgment. Commercial Assocs. v. Tilcon
Gammino, Inc., 801 F. Supp. 939, 942 (D. R. I. 1992),
aff’d 998 F.2d 1092 (1st Cir. 1993).
B. Interest
“Prejudgment interest on a damages award for
patent infringement ‘is the rule’ under 35 U.S.C.
§ 284[.]” Sensonics, Inc. v. Aerosonic Corp., 81 F.3d
1566, 1574 (Fed. Cir. 1996). The purpose of prejudgment interest “to ensure that the patent owner is
placed in as good a position as he would have been
had the infringer entered into a reasonable royalty
agreement.” Gen. Motors Corp. v. Devex Corp., 461
U.S. 648, 655 (1983). An award of interest from the
time that the royalty payments would have been
received merely serves to make the patent owner
whole, since the damages consist not only of the value
of the royalty payments but also of the foregone use
of the money between the time of infringement and
the date of the judgment. Id. at 655-56. “The rate of
prejudgment interest and whether it should be
compounded or uncompounded are matters left largely
to the discretion of the district court” and “must be
guided by the purpose of prejudgment interest, which

37a
is to ensure that the patent owner is placed in as good
a position as he would have been had the infringer
entered into a reasonable royalty agreement.” Bio-Rad
Labs., Inc. v. Nicolet Instrument Corp., 807 F.2d 964,
969 (Fed. Cir. 1986) (internal quotation marks and
citations omitted). “Courts have recognized that the
prime rate best compensate[s] a patentee for lost
revenues during the period of infringement because
the prime rate represents the cost of borrowing money,
which is ‘a better measure of the harm suffered as
a result of the loss of the use of money over time.’”
IMX, Inc. v. LendingTree, LLC, 469 F. Supp. 2d 203,
227 (D. Del.) on reconsideration in part, No. CIV. 03
1067 SLR, 2007 WL 1232184 (D. Del. Apr. 25, 2007)
(quoting Mars, Inc. v. Conlux USA Corp., 818 F. Supp.
707, 720–21 (D. Del.), aff’d, 16 F.3d 421 (Fed. Cir.
1993); see also Amgen Inc. v. Hospira, Inc., 336 F.
Supp. 3d 333, 364 (D. Del. 2018). “[I]t is not necessary
that a patentee demonstrate that it borrowed at the
prime rate in order to be entitled to prejudgment
interest at that rate.” Uniroyal, Inc. v. Rudkin–Wiley
Corp., 939 F.2d 1540, 1545 (Fed.Cir.1991) (citation
omitted).
Post-judgment interest should accrue at the statutory rate as specified in 28 U.S.C. § 1961(a). Amgen
Inc., 336 F. Supp. 3d at 364. Section 1961(a) provides,
“Interest shall be allowed on any money judgment in
a civil case recovered in a district court. . . . Such
interest shall be calculated from the date of the entry
of the judgment . . . .” 28 U.S.C. § 1961(a). Section
1961(a) does not provide for interest until a money
judgment fixing the amount owed to the prevailing
party. Eaves v. Cty. of Cape May, 239 F.3d 527, 534
(3d Cir. 2001). “The statute does not, by its terms,
mandate that the judgment from which interest is calculated must be a final judgment.” In re Lower Lake

38a
Erie Iron Ore Antitrust Litig., 998 F.2d 1144, 1177-78
(3d Cir. 1993); see also Skretvedt v. E.I. DuPont De
Nemours, 372 F.3d 193, 216 (3d Cir. 2004) (“The fact
that the December 13, 2001, judgment was not a final
order for purposes of appeal would not otherwise
prevent postjudgment interest from running under
§ 1961 . . . .”).
C. Ongoing Infringement
Under 35 U.S.C. § 284, damages for patent infringement are authorized “[u]pon finding for the claimant”
in an amount “adequate to compensate for the infringement, but in no event less than a reasonable royalty
for the use made of the invention by the infringer[.]”
35 U.S.C. § 284. Patentees are entitled to supplemental damages accounting for any infringing sales
that occurred before the verdict but that were not
reflected in the last financial discovery produced. See,
e.g., E.I. DuPont de Nemours and Co. v. Unifrax I LLC,
No. 14–1250–RGA, 2017 WL 4004419, *7-*8 (D. Del.
2017).
To provide relief against ongoing infringement, a
court can consider several remedies: “(1) it can grant
an injunction; (2) it can order the parties to attempt
to negotiate terms for future use of the invention; (3)
it can grant an ongoing royalty; or (4) it can exercise
its discretion to conclude that no forward-looking
relief is appropriate in the circumstances.” Whitserve,
LLC v. Comput. Packages, Inc., 694 F.3d 10, 35 (Fed.
Cir. 2012). An ongoing royalty permits an adjudged
infringer to continue using a patented invention for
a price. Paice LLC v. Toyota Motor Corp., 504 F.3d
1293, 1313 n.13 (Fed. Cir. 2007) (defining an ongoing
royalty and distinguishing a compulsory license).
The Federal Circuit has identified 35 U.S.C. § 283,
which authorizes “injunctions in accordance with the

39a
principles of equity,” as statutory authority for
awarding ongoing royalties. See id. at 1314 (citing
§ 283 and stating that “[u]nder some circumstances,
awarding an ongoing royalty for patent infringement
in lieu of an injunction may be appropriate”). If a
permanent injunction is not warranted, courts have
the power to assess a reasonable ongoing royalty in
light of continued infringement when the parties are
unable to negotiate a license regarding the future use
of a patented invention. See Paice, 504 F.3d at 1315;
see also Bard Peripheral Vascular, Inc. v. WL. Gore
& Assocs., Inc., 670 F.3d 1171, 1192 (Fed. Cir. 2012)
(explaining that the “award of an ongoing royalty
instead of a permanent injunction to compensate for
future infringement is appropriate in some cases”).
When a patentee requests running royalty damages,
and the jury awards damages through trial, district
courts have authority to craft a compulsory ongoing
royalty for future sales of products the jury found to
infringe. See Paice, 504 F.3d at 1315.5
The criteria for adjudicating a violation of a prohibition against continued infringement by a party
whose products have already been adjudged to be
infringing is a matter of Federal Circuit law. TiVo
Inc. v. EchoStar Corp., 646 F.3d 869, 881–82 (Fed. Cir.
2011). The inquiry as to whether there “is a fair
ground of doubt as to the wrongfulness of the defendant’s conduct” in continued infringement in patent
cases is “one of colorable differences between the
newly accused product and the adjudged infringing
5

Accordingly, while this remedy involves monetary relief,
there is no Seventh Amendment right to jury trial for ongoing
royalties. See Paice, 504 F.3d at 1315-16 (“[T]he fact that monetary relief is at issue in this case does not, standing alone,
warrant a jury trial.”).

40a
product.” Id. at 882; see also Abbott Labs. v. TorPharm,
Inc., 503 F.3d 1372, 1380 n.3 (Fed. Cir. 2007). Thus,
the party seeking to enforce an injunction (or obtain
ongoing royalties) must prove both that the newly
accused product is not more than colorably different
from the product found to infringe and that the newly
accused product actually infringes. Id.; see also Apple
Inc. v. Samsung Elecs. Co., No. 12-CV-00630-LHK,
2018 WL 905943, at *4 (N.D. Cal. Feb. 15, 2018)
(applying the injunction standard on continued
infringement by newly accused products to ongoing
royalties). The Federal Circuit states:
The analysis must focus not on differences
between randomly chosen features of the
product found to infringe in the earlier
infringement trial and the newly accused
product, but on those aspects of the accused
product that were previously alleged to be,
and were a basis for, the prior finding of
infringement, and the modified features of
the newly accused product. Specifically, one
should focus on those elements of the adjudged
infringing products that the patentee previously contended, and proved, satisfy specific
limitations of the asserted claims. Where one
or more of those elements previously found to
infringe has been modified, or removed, the
court must make an inquiry into whether that
modification is significant. If those differences between the old and new elements are
significant, the newly accused product as a
whole shall be deemed more than colorably
different from the adjudged infringing one,
and the inquiry into whether the newly accused
product actually infringes is irrelevant.

41a
TiVo Inc., 646 F.3d at 881–82. The significance of
the differences between the two products is much
dependent on the nature of the products at issue. Id.
D. Enhanced Damages
“[A]n award of enhanced damages requires a showing of willful infringement.” In re Seagate Tech.,
LLC, 497 F.3d 1360, 1368 (Fed. Cir. 2007) (en banc)
(emphasis added); accord i4i Ltd. P’ship v. Microsoft
Corp., 598 F.3d 831, 858 (Fed. Cir. 2010). “Awards
of enhanced damages” are reserved for “egregious
infringement behavior” the Court has “variously
described . . . as willful, wanton, malicious, badfaith, deliberate, consciously wrongful, flagrant, or—
indeed—characteristic of a pirate.” Halo Elecs., Inc. v.
Pulse Elecs., Inc., — U.S. —, —, 136 S. Ct. 1923,
1932 (2016). In other words, reprehensible conduct
undertaken with knowledge of its wrongfulness. See
id. at 1930- 32. Willfulness “is a classical jury question
of intent. When trial is had to a jury, the issue should
be decided by the jury.” WBIP, LLC v. Kohler Co., 829
F.3d 1317, 1341 (Fed. Cir. 2016).
E. Attorney Fees, Expenses and Costs
Section 285 provides, in its entirety, “[t]he court in
exceptional cases may award reasonable attorney fees
to the prevailing party.” 35 U.S.C. § 285. “When
deciding whether to award attorney fees under § 285,
a district court engages in a two-step inquiry.”
MarcTec, LLC v. Johnson & Johnson, 664 F.3d 907,
915 (Fed. Cir. 2012). The court first determines
whether the case is exceptional and, if so, whether
an award of attorney fees is justified. Id. at 915-16.
The Supreme Court defines “an ‘exceptional’ case [as]
simply one that stands out from others with respect to
the substantive strength of a party’s litigating position

42a
(considering both the governing law and the facts of
the case) or the unreasonable manner in which the
case was litigated.” Octane Fitness LLC v. Icon Health
& Fitness, Inc., 572 U.S. 545, 554 (2014). An “exceptional” case is “‘uncommon,’ ‘rare,’ or ‘not ordinary[.]’”
Id. at 553. District courts may “consider a ‘nonexclusive’ list of ‘factors,’ including ‘frivolousness, motivation, objective unreasonableness (both in the factual
and legal components of the case) and the need in
particular circumstances to advance considerations of
compensation and deterrence.’” Id. at 554 n.6 (quoting
Fogerty v. Fantasy, Inc., 510 U.S. 517, 534 n.19
(1994)).
III. DISCUSSION
A. Supplemental Damages
The Court finds that IP Bridge is entitled to supplemental damages for any infringing sales that occurred
before the verdict but were not reflected in the last
financial discovery produced on March 31, 2018. The
Court will order an accounting of infringing sales of all
adjudicated products through the date of verdict.
B. Interest
The Court finds that prejudgment interest calculated at the prime rate, compounded quarterly, is an
appropriate approximation of the amount necessary
to make the patentee whole for infringement of its
patents as to the adjudicated products. The parties
agree that TCL had notice of infringement no later
than July 24, 2015 when IP Bridge filed its complaint,
and prejudgment interest should accrue beginning on
that date with respect to the accused products.
TCL does not challenge IP Bridge’s request for postjudgment interest. On January 2, 2019, the Court

43a
entered judgment following the jury verdict for IP
Bridge and against TCL on the jury’s verdict in the
amount of $950,000. D.I. 512, Judgment Following
Verdict (incorporating Special Interrogatories). As of
that date, there existed a money judgment for IP
Bridge that identified the parties for and against
whom the judgment was being entered and set out
a definite and certain designation of the amount owed.
Accordingly, the Court will award IP Bridge postjudgment interest on the $950,000 damages award
beginning on date of entry of that judgment. Prejudgment interest, however, will not have been quantified
in a money judgment until the date of the final
judgment awarding prejudgment interest and ongoing
royalties following this opinion. Accordingly, the Court
will award IP Bridge post-judgment interest on the
prejudgment interest commencing on the date of entry
of a final judgment.
C. Ongoing Royalties
The Court finds that an award of ongoing royalties
to IP Bridge is appropriate. The Court finds, based on
the evidence, expert testimony, the parties’ arguments, and the jury’s damages award, that IP Bridge
was meant to recover a running royalty as opposed
to a lump-sum, paid-through-expiration license. The
Court finds the jury verdict reflects an appropriate
determination of the FRAND royalty rate and the
Court will not supplant the jury’s determination.
The Court finds IP Bridge’s argument that a postverdict royalty should be enhanced because there is a
difference between a hypothetical negotiation at the
time of infringement and a hypothetical negotiation
once validity and infringement have been determined
has less force in the context of a standard essential
patent. A SEP patent must be licensed at a fair,

44a
reasonable, and nondiscriminatory rate. The jury
determined that rate. There is no reason for the Court
to choose a royalty rate higher than the jury’s rate.
Although IP Bridge seeks royalties at three times the
rate found by the jury, the court finds the rate established by the jury verdict is the appropriate measure.
Accordingly, the Court finds IP Bridge shall recover
a reasonable royalty in the amount of four cents per
unit per patent on adjudicated products from and after
March 31, 2018. The Court also finds that, going
forward, royalties for unadjudicated products—any
LTE products TCL sells—should be awarded. The
record establishes that there is no colorable difference
between the accused products and products that are
able to use and communicate over LTE networks. The
evidence adduced at trial shows that LTE phones do
not operate on the LTE network without infringing
the asserted claims. The jury determined that the
asserted claims were standard essential patent
claims.
IP Bridge contends that TCL has released numerous
LTE products beyond those adjudicated at trial. D.I.
506-4, Ex. 6, excerpts and product manuals downloaded from publicly available websites, including
TCL’s website. TCL has not responded to the merits of
that factual contention, it argues only that the court
lacks authority to impose an ongoing royalty on unadjudicated products. Because IP Bridge showed at
trial that the asserted claims are standard essential
patents and any LTE products would necessarily
infringe the asserted patent claims, the Court finds
that TCL’s other LTE products are not colorably
different that the accused products. The Court finds
that TCL’s other LTE products infringe IP Bridge’s

45a
patent claims in the same way the accused products
do.
IP Bridge would ordinarily be entitled to an injunction against continued infringement. Because an
injunction is not generally appropriate in an action
involving a SEP, the patentee is instead entitled to an
ongoing royalty. The Court will award an accounting
of and an ongoing royalty for non-adjudicated TCL
LTE products sold after November 21, 2017 (the date
of IP Bridge’s final identification of accused products).
D.I. 506-5, Ex. 8, Identification of Accused Products.
D. Enhanced (trebled) Past Damages
The jury found no willful infringement and the
Court will abide by that determination. IP Bridge’s
allegations of “hold out” and TCL’s supposedly being
an “unwilling licensee” have no relevance in view of
the jury’s verdict. As the Court pointed out at the
close of evidence, IP Bridge’s “unwilling licensee”
theory was part and parcel of its willfulness claim. The
Court also rejects IP Bridge’s theory that TCL’s
“patent hold-out” conduct and its litigation conduct
demonstrate bad faith or flagrant conduct warranting
enhanced damages, notwithstanding the jury’s determination. The jury heard essentially the same evidence that IP Bridge relies on in support of its position.
The Court sees no reason to disturb the jury’s finding
that TCL’s infringement was not willful.
The Court agrees with TCL that nothing about this
case “stands out from others” as to either the strength
of IP Bridge’s claims or the manner in which the case
was litigated. IP Bridge sought, but failed, to prove
willful infringement. It recovered far less in damages
than it sought. IP Bridge is now constrained by the
consequences of its litigation strategies. The jury was

46a
presented with opposing expert opinions and chose one
over the other.
E. Attorney Fees and Nontaxable Costs and
Expenses
With respect to IP Bridge’s motion for an award of
attorney fees and related nontaxable costs and
expenses, the Court finds that this is not a case so
exceptional as to justify an award of such fees and
expenses under 35 U.S.C. § 285. Although this patent
case was hotly contested and involved numerous
disputes between the parties, the record does not show
that the either party adopted unreasonable or frivolous litigation positions, litigated in an unreasonable
manner, or acted in bad faith. Such zealous representation is the rule, not the exception, in most patent
cases.
Similarly, the Court will deny TCL’s corresponding
request for reimbursement of its fees and expenses for
responding to IP Bridge’s motion. The Court largely
resolved the post-trial motions in IP Bridge’s favor. IP
Bridge is the prevailing party and TCL has not shown
that IP Bridge’s litigation tactics have been frivolous
or vexatious.
IT IS ORDERED:
1. The plaintiff’s motion for post-trial relief is
granted in part and denied in part as set forth in this
Memorandum and Order.
2. The plaintiff’s motion is denied with respect to
enhanced damages, attorney fees, and nontaxable
costs and expenses.
3. The defendant shall provide an accounting of
infringing sales of all adjudicated products from

47a
March 31, 2018, through the date of verdict to the
plaintiff within three weeks of the date of this order.
4. The defendant shall identify all non-accused LTE
products to plaintiff and provide an accounting of all
infringing sales of non-accused LTE products from and
after November 21, 2017, to the plaintiff within four
weeks of the date of this order.
5. The plaintiff shall recover prejudgment interest,
calculated at the prime rate, compounded quarterly,
on the amount of $950,000.00 from and after July 24,
2015, to January 2, 2019.
6. The plaintiff shall recover postjudgment interest
at the legal rate on the amount of $950,000 from and
after January 2, 2019 until such judgment is paid.
7. The plaintiff shall recover postjudgment interest
at the legal rate on the amount of prejudgment
interest recovered from the defendant from and after
the date a final judgment is entered.
8. The plaintiff shall recover ongoing royalties at
the rate of four cents per unit per patent for products
adjudicated to infringe the ’239 patent and the ’538
patent from January 2, 2019, to expiration of the
patent.
9. The plaintiff shall recover ongoing royalties at
the rate of four cents per unit per patent for LTE
products not colorably different from the adjudicated
products from this date to expiration of the ’239 and
’538 patents.
10. The parties shall submit final accountings and
proposed final judgment orders to the Court within
two months of the date of this order.
11. TCL’s Request for Fees and Costs for
Responding to IP Bridge’s Motion (D.I. 504) is denied.

48a
DATED this 24th day of April, 2019.
BY THE COURT:
s/ Joseph F. Bataillon
Senior United States District Judge

49a
APPENDIX E
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
[Filed April 26, 2019]
————
Civ. No. 15-634-JFB
————
GODO KAISHA IP BRIDGE 1,
Plaintiff,

v.

TCL COMMUNICATION TECHNOLOGY HOLDINGS
LIMITED, A Chinese Corporation, TCT MOBILE
LIMITED, a Hong Kong Corporation, TCT MOBILE
(US), INC., A Delaware Corporation, and TCT
MOBILE, INC., A Delaware Corporation,
Defendants.
————
MEMORANDUM & ORDER
This matter is before the Court on a motion for
judgment as a matter of law filed by defendants TCL
Communication Technology Holdings Limited, TCT
Mobile (US), Inc., TCT Mobile Limited, and TCT
Mobile, Inc. (collectively, “TCL”) (D.I. 502).1
I. BACKGROUND
TCL renews its motion for judgment as a matter of
law (JMOL) of noninfringement and invalidity under
Federal Rule of Civil Procedure 50(b). This action
1

The parties request oral argument on the motion (D.I. 524
and 525), but the Court finds it is not necessary.

50a
was tried to a jury from October 30, 2018, to November
8, 2018, on IP Bridge’s claim that TCL’s accused
mobile phone devices infringed claims 9 and 12 of U.S.
Patent No. 8,385,239 (“the ’239 patent”) and claims 15
and 16 of U.S. Patent No. 8,351,538 (“the ’538 patent”).
The jury found that TCL infringes all four asserted
claims, found all four claims valid, and awarded
damages in the amount of $950,000 for both patents.
D.I. 487, Jury Verdict (sealed).
TCL first argues that a judgment of non-infringement
should be granted under Rule 50(b). It contends that
IP Bridge failed to prove that each and every one of
the requirements of the asserted claims were met by
the accused products and argues that that the narrow
exception to the requirements for proving infringement carved out in Fujitsu Ltd. v. Netgear Inc., 620
F.3d 1321 (Fed. Cir. 2010), does not apply here.2 It
argues that IP Bridge showed merely that the asserted
claims were essential to the LTE standard, which
was never contested. It relies on the testimony of IP
Bridge’s expert, Dr. Paul Min, contending that he
stated that an express limitation of the claims was not
really required. For the ’538 patent, it points to Dr.
Min’s testimony that there must be code somewhere
that met the limitation in question (the “orthogonal2

In Fujitsu Ltd. v. Netgear Inc., 620 F.3d 1321, 1327 (Fed. Cir.
2010), the Federal Circuit court of Appeals found that
if an accused product operates in accordance with a
standard, then comparing the claims to that standard
is the same as comparing the claims to the accused
product . . . . An accused infringer is free to either prove
that the claims do not cover all implementations of the
standard or to prove that it does not practice the
standard.
Id.

51a
ity” limitation) and his purported failure to identify
the limitation. TCL contends Dr. Min’s analysis
was insufficient as a matter of law to prove literal
infringement and because IP Bridge’s showing of literal infringement was based only on Dr. Min’s analysis, the jury’s literal infringement finding verdict
should be set aside and judgment should be entered in
TCL’s favor.
TCL also contends that it is entitled to a judgment
of invalidity of the ’239 patent, arguing it proved by
clear and convincing evidence that the asserted claims
were obvious. It argues that IP Bridge’s arguments
as to the non-obviousness of the ’538 patent lack merit.
TCL contends that its expert’s testimony regarding
the scope and content of the prior art; the differences
between the claimed invention and the prior art; and
the level of ordinary skill in the art were unrebutted
by IP Bridge and it further contends IP Bridge
provided no evidence of any secondary considerations
(or objective indicia) of non-obviousness. Instead, it
argues that IP Bridge’s arguments are insufficient as
a matter of law to defeat the TCL’s asserted combinations and contends a judgment of invalidity as a
matter of law should be entered in TCL’s favor.
In opposition, IP Bridge argues that the jury’s findings are supported by sufficient evidence.
II. LAW
A. Standard of Review
The law of the regional circuit—here the Third
Circuit—governs the standards for deciding motions
for JMOL under Fed. R. Civ. P. 50(b) and new trial
under Fed. R. Civ. P. 59(a). See WBIP, LLC v. Kohler
Co., 829 F.3d 1317, 1325 (Fed. Cir. 2016); Leader
Techs., Inc. v. Facebook, Inc., 678 F.3d 1300, 1305

52a
(Fed. Cir. 2012). Under Rule 50(b), in ruling on a
renewed motion, “the court may: (1) allow judgment on
the verdict, if the jury returned a verdict; (2) order a
new trial; or (3) direct the entry of judgment as a
matter of law.” Fed. R. Civ. P. 50(b). A judgment as a
matter of law is appropriate when “the verdict is not
supported by legally sufficient evidence.” Lightning
Lube, Inc. v. Witco Corp., 4 F.3d 1153, 1166 (3d Cir.
1993). In the Third Circuit, a “court may grant a judgment as a matter of law contrary to the verdict only
if ‘the record is critically deficient of the minimum
quantum of evidence’ to sustain the verdict.” Acumed
LLC v. Advanced Surgical Servs., Inc., 561 F.3d 199,
211 (3d Cir. 2009) (quoting Gomez v. Allegheny Health
Servs., Inc., 71 F.3d 1079, 1083 (3d Cir.1995)).
“In considering that issue the court ‘may not weigh
the evidence, determine the credibility of witnesses,
or substitute its version of the facts for the jury’s
version.’” Id. (quoting Lightning Lube, Inc. v. Witco
Corp., 4 F.3d 1153, 1166 (3d Cir.1993)). “Entry of
judgment as a matter of law is a ‘sparingly’ invoked
remedy, granted only if, viewing the evidence in the
light most favorable to the nonmovant and giving
it the advantage of every fair and reasonable inference, there is insufficient evidence from which a
jury reasonably could find liability.” Marra v. Phila.
Hous. Auth., 497 F.3d 286, 300 (3d Cir. 2007) (citation
omitted). A renewed post-verdict JMOL motion under
Federal Rule of Civil Procedure Rule 50(b) “may not be
made on grounds not included in the earlier [Rule
50(a)] motion.” Duro-Last, Inc. v. Custom Seal, Inc.,
321 F.3d 1098, 1105 (Fed. Cir. 2003).
B. Infringement
To prove literal infringement, a patent owner must
prove that every element of the claim is present in the

53a
accused device. Warner-Jenkinson v. Hilton Davis
Chem. Co., 520 U.S. 17, 29 (1997). “If an accused product operates in accordance with a standard, then
comparing the claims to that standard is the same as
comparing the claims to the accused product.” Fujitsu
Ltd. v. Netgear Inc., 620 F.3d at 327. “An accused
infringer is free to either prove that the claims do
not cover all implementations of the standard or to
prove that it does not practice the standard.” Id.
However, if the relevant section of the standard is
optional rather than mandatory, it would not be
sufficient for the patent owner to establish infringement by arguing that the product admittedly practices
the standard. Id.
C. Invalidity — Obviousness
To be patent-eligible, an invention must not have
been obvious to a skilled artisan at the time of
invention. See 35 U.S.C. § 103. “Whether a patent is
invalid as obvious is ultimately a determination of law
based on underlying determinations of fact.” Geo. M.
Martin Co. v. All. Mach. Sys. Int’l LLC, 618 F.3d 1294,
1300 (Fed. Cir. 2010). A legal determination of obviousness must be based on four factual inquiries: “1)
the scope and content of the prior art; 2) the level of
ordinary skill in the art; 3) the differences between
the claimed invention and the prior art; and 4) secondary considerations of nonobviousness[.]” Ruiz v. A.B.
Chance Co., 234 F.3d 654, 662–63 (Fed. Cir. 2000). “[A]
patent composed of several elements is not proved
obvious merely by demonstrating that each of its elements was, independently, known in the prior art.”
KSR Int’l Co. v. Teleflex Inc., 550 U.S. 398, 418 (2007).
Rather, “[a] party seeking to invalidate a patent on
obviousness grounds must demonstrate by clear and
convincing evidence that a skilled artisan would have

54a
been motivated to combine the teachings of the prior
art references to achieve the claimed invention, and
that the skilled artisan would have had a reasonable
expectation of success in doing so.” InTouch Techs.,
Inc. v. VGO Commc’ns, Inc., 751 F.3d 1327, 1347 (Fed.
Cir. 2014). This analysis, known as the “teaching, suggestion, or motivation” test, must be “expansive and
flexible,” and not “rigid.” KSR, 550 U.S. at 407.
III. DISCUSSION
A. Infringement
The Court has reviewed the evidence submitted in
support of and opposition to the motion (D.I. 506, 515,
522, and 523 (sealed)). The Court agrees with IP
Bridge that substantial evidence supports the jury’s
finding that the TCL infringes the asserted claims of
the patents at issue. The jury was instructed that to
recover on its claim of direct infringement by literal
infringement,
IP Bridge must prove by a preponderance of
the evidence that TCL made, used, sold,
offered for sale within, or imported into the
United States a product that meets all of the
requirements of the invention defined in a
claim and did so without the permission of IP
Bridge during the time the ’239 and/or the
’538 patent was in force.
You must compare the Accused Products with
each and every one of the requirements of a
claim to determine whether the requirements
of that claim are met. You must determine
whether or not there is infringement separately for each asserted claim.
D.I. 481, Initial Jury Instructions, Instruction No. 19.

55a
The jury’s verdict is supported by the testimony of
the plaintiff’s expert, Dr. Min, record evidence, and
the concessions and admissions of the defendant’s
expert, Dr. Wicker. At trial, Dr. Min testified that: (1)
the asserted claims are essential to mandatory (not
optional) functionality of the LTE standard (i.e.,
functionality that must be performed by any device
that complies with the LTE standard); and (2) the
accused products comply with the LTE standard. TCL
did not present evidence to counter that showing. Dr.
Min identified mandatory requirements of the LTE
standard and explained how the mandatory portions
relate to and practice the elements of the asserted
claims. In essence, he testified that if functionality is
mandatory, a device that is capable of connecting to
an LTE network must have that functionality and
explained that there is no way to implement the LTE
standard without practicing each of the asserted
claims. He stated that he analyzed extensive TCL
documents, including user manuals, compliance
matrices, certificates of compliance, and source code,
to determine that the accused products practice the
LTE standard.
Also, IP Bridge did not merely present evidence
of infringement based on the LTE standard under
Fujitsu, Dr. Min also testified that he analyzed the
source code and confirmed that the accused products
operate consistently with the relevant portions of
the LTE standard, and thus infringe. TCL’s focus on
isolated testimony from Dr. Wicker that arguably
favors its position on noninfringement is misplaced.
Questions from the jury show that it considered Dr.
Wicker’s opinion and considered dependent as well as
independent claims. D.I. 484, 485, and 486, Jury
Questions. The jury was entitled to credit Dr. Min’s
testimony and—as it did—to reject Dr. Wicker’s opin-

56a
ion. That there is some evidence of record that may
support TCL’s position is not sufficient to overturn a
jury’s verdict.
With respect to the ’239 patent, Dr. Min proffered
evidence that the accused products practice the “multiplexing mode” limitation of the asserted claims. Dr.
Min also testified that the accused products meet the
“orthogonal sequences” limitation of the ’538 patent
(i.e., that the spreading orthogonal sequences are
selected “from a plurality of orthogonal sequences”).
Dr. Wicker did not dispute that testimony.
TCL’s reliance on testimony from Dr. Wicker and a
Qualcomm engineer that purportedly shows that the
source code stores 0s and 1s, rather than the 1s and 1s required by the LTE standard, is also misplaced.
The jury obviously credited Dr. Min’s testimony that
in order to function on an LTE network, the accused
products—indeed, all LTE devices—are required to
use 1s and -1s.
The Court declines to supplant the jury’s determinations of credibility. Accordingly, the Court finds
TCL has not shown that there is insufficient evidence
to support the jury's finding that TCL infringed the
asserted claims of the asserted patents.
B. Invalidity
Further, the Court finds that TCL has not shown
that it is entitled to judgment as a matter of law on
invalidity. The jury was instructed that in order to find
invalidity by obviousness, it must find that TCL
established, by clear and convincing evidence that
“that the claimed invention would have been obvious
to persons having ordinary skill in the art at the time
the invention was made” and that “obviousness may
be shown by considering one or more than one item of

57a
prior art.” D.I. 481, Jury Instructions, Instruction No.
28. The jury was also instructed to consider the
following factors to determine whether TCL had
established that the claimed invention was obvious:
1. the scope and content of the prior art relied
upon by TCL;
2. the difference or differences, if any,
between each claim of the Asserted Patents
that TCL contends is obvious and the prior
art;
3. the level of ordinary skill in the art at the
time the invention of the Asserted Patents
was made; and
4. additional considerations, known as objective indicators, if any, that indicate that the
invention was obvious or not obvious.
Id. Further, the Court instructed the jury to perform a
separate analysis for each of the claims. Id.
The record shows there were several independent
grounds on which a reasonable jury could have based
its determination that TCL failed to meet its heavy
burden of proving by clear and convincing evidence
that the asserted claims are obvious. Based on the
evidence adduced at trial, a reasonable jury could have
concluded either: (1) that TCL had not shown that
Kim ’168 is prior art to the ’239 patent;3 (2) that TCL
3

For Kim ’168 to be prior art to the ‘239 patent, TCL was
required to show that Kim ’168 is entitled to the February 3, 2008
priority date of its provisional application (“Kim ’808 provisional”), which comes before the priority date of the ’239 patent.
To do that, it had to show that the claims of Kim ’168 are
supported by the Kim ’808 provisional application and the
portions of Kim ’168 relied upon by TCL for invalidity are
supported by the Kim ’808 provisional application. See Dynamic

58a
had not shown that a person of ordinary skill in the art
would have been motivated to combine Kim ’168 and
Kim ’201; or (3) that TCL had not shown that the
combination of Kim ’168 and Kim ’201 would render
all the limitations of the ’239 patent asserted claims
obvious. Dr. Min testified that neither the claims
of Kim ’168 nor the portions of Kim ’168 relied on by
TCL for invalidity are supported by the Kim ’808
provisional application, and thus Kim ’168 is not prior
art. Although Dr. Wicker testified at trial that a
person of ordinary skill in the art would have been
motivated to combine prior art shown in the Kim ’168
and Kim ’201 references, that testimony is controverted by Dr. Min. In rebuttal, Dr. Min took the
position that, because the inventors of the Kim patent
references filed two separate patent applications, as
opposed to a single combined patent application, a
person of ordinary skill in the art would not have been
motivated to combine the Kim patent references. Dr.
Min testified that a person of ordinary skill in the
art would not have been motivated to combine Kim
’168 and Kim ’201 in view of their fundamentally
different approaches to sending CQI. The jury
obviously credited Dr. Min’s, as it was entitled to do.
Similarly, there were independent grounds for the
jury’s determination that TCL failed to prove by clear
and convincing evidence that the asserted claims of
the ’538 were obvious based on the combination of
prior art references relied on by TCL. Although Dr.
Wicker testified that 3GPP TSG RAN WG1 #49 R1072857 (“the first Texas Instruments paper”), 3GPP
TSG RAN WG1 #49 R1-072212 (“the second Texas
Instruments paper”), and U.S. Patent No. 8,005,153
Drinkware, LLC v. Nat’l Graphics, Inc., 800 F.3d 1376, 1381 (Fed.
Cir. 2015).

59a
(“Muharemovic”), in combination, disclosed every
element of the asserted claims of the ’538 patent, the
jury was free to reject that testimony. The jury could
credit the testimony of Dr. Min that the references did
not disclose elements of the asserted claims and that a
person of ordinary skill in the art would not have been
motivated to combine the prior art references. Again,
the jury was free to credit IP Bridge’s evidence over
that presented by TCL.
Again, the Court will not the jury’s credibility
determinations. TCL has not shown that it is entitled
to a judgment of invalidity. The record supports the
jury’s conclusion that TCL did not prove by clear and
convincing evidence that the asserted claims of the
asserted patents are invalid. Accordingly,
IT IS ORDERED that:
1. The defendants’ motion for judgment as a matter
of law (D.I. 502) is denied.
2. A final judgment on the verdict will be entered.
Dated this 24th day of April, 2019.
BY THE COURT:
s/ Joseph F. Bataillon
Senior United States District Judge

60a
APPENDIX F
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
————
2019-2215
————
GODO KAISHA IP BRIDGE 1,
v.

Plaintiff-Appellee,

TCL COMMUNICATION TECHNOLOGY
HOLDINGS LIMITED, TCT MOBILE LIMITED,
TCT MOBILE (US) INC., TCT MOBILE, INC.,
Defendants-Appellants.
————
Appeal from the United States District Court for the
District of Delaware in No. 1:15-cv-00634-JFB-SRF,
Senior Judge Joseph F. Bataillon.
————
Decided: August 4, 2020
————
KEVIN JOHN POST, Ropes & Gray LLP, New York, NY,
argued for plaintiff-appellee. Also represented by
ALEXANDER E. MIDDLETON, STEVEN PEPE; DOUGLAS
HALLWARD-DRIEMEIER, Washington, DC; SAMUEL
LAWRENCE BRENNER, Boston, MA; JAMES RICHARD
BATCHELDER, East Palo Alto, CA.
JOHN NILSSON, Arnold & Porter Kaye Scholer LLP,
Washington, DC, argued for defendants-appellants.
Also represented by NICHOLAS M. NYEMAH, ANDREW
TUTT.

61a
Before PROST, Chief Judge, NEWMAN and O’MALLEY,
Circuit Judges.
O’MALLEY, Circuit Judge.
In this appeal, the parties dispute whether the
patentee was permitted to prove that the Appellants’
products infringed the claims of the asserted patent
by showing that: (1) the patent claims are essential to
mandatory aspects of the Long-Term Evolution
(“LTE”) standard; and (2) the accused products practice that standard. Appellants assert that, if Appellee
wanted to resort to that theory of infringement, it
was required to ask the court to decide the question
of the claims’ essentiality to the standard in the claim
construction context and that the court needed to
decide that question as a matter of law. Unsurprisingly, Appellee disagrees. We find no error in the submission of these questions to the jury in the context of
an infringement trial.
BACKGROUND
This appeal arises from a patent infringement
action filed in the United States District Court for
the District of Delaware. Patent Owner Godo Kaisha
IP Bridge 1 (“IP Bridge”) sued TCL Communication
Technology Holdings Limited, TCT Mobile Limited,
TCT Mobile (US) Inc., and TCT Mobile, Inc. (collectively, “TCL”), alleging infringement of U.S. Patent
Nos. 8,385,239 and 8,351,538.
The district court held a jury trial in 2018. At trial,
IP Bridge’s theory of infringement hinged on what
it told the jury were two “bedrock facts”: that the
patents-in-suit are essential to the LTE standard and
that TCL’s accused devices are LTE-compatible. Relying on Fujitsu Ltd. v. Netgear Inc., 620 F.3d 1321
(Fed. Cir. 2010) (holding, on appeal from a summary

62a
judgment decision, that a district court may rely on
an industry standard in analyzing infringement), IP
Bridge put forth evidence to demonstrate that (1) the
asserted claims are essential to mandatory sections
of the LTE standard; and (2) the accused products
comply with the LTE standard. Godo Kaisha IP Bridge
1 v. TCL Commc’n Tech. Holdings Ltd., No. CV 15-634JFB, 2019 WL 1879984, at *3 (D. Del. Apr. 26, 2019)
(“Infringement Op.”). As the district court pointed out,
TCL did not present any evidence to counter that
showing. Id.
After a seven-day jury trial, the jury found that TCL
was liable for infringement of the asserted claims by
its sale of LTE standard-compliant devices such as
mobile phones and tablets. The jury also awarded IP
Bridge damages in the amount of $950,000. Godo
Kaisha IP Bridge 1 v. TCL Commc’n Tech. Holdings
Ltd., No. CV 15-634-JFB, 2019 WL 1877189, at *1 (D.
Del. Apr. 26, 2019) (“Damages Op.”). Following the
verdict, both parties filed motions for post-trial relief.
In its motion for judgment as a matter of law
(“JMOL”), TCL contended that IP Bridge’s theory of
infringement was flawed because the Fujitsu “narrow
exception” to proving infringement in the standard
way—i.e., by showing that each element in the
asserted claim is present in the accused devices—
should not apply in this case. Infringement Op. at *1.
Specifically, TCL argued that IP Bridge could not rely
on the methodology approved in Fujitsu because
Fujitsu only approved that methodology in circumstances where the patent owner asks the district court
to assess essentiality in the context of construing the
claims of the asserted patents. The district court
did not accept TCL’s argument that IP Bridge’s theory
of infringement was legally flawed. It denied TCL’s

63a
motion, concluding that substantial evidence supported the jury’s infringement verdict. Id. at *3–4.
IP Bridge also sought post-trial relief in the context
of a motion to amend the judgment under Federal Rule
of Civil Procedure 59(e). IP Bridge sought supplemental damages and an accounting of infringing
sales of all adjudicated products through the date of
the verdict, and ongoing royalties for TCL’s LTE
standard-compliant products, “both adjudicated and
non-adjudicated.” Damages Op. at *2. The court
awarded the requested pre-verdict supplemental
damages. It also found that the jury’s award represented a FRAND royalty rate of $0.04 per patent per
infringing product and awarded on-going royalties in
that amount for both the adjudicated products and
certain unadjudicated products. It reasoned that,
because IP Bridge demonstrated at trial that LTE
standard-compliant devices do not operate on the LTE
network without infringing the asserted claims, the
unaccused, unadjudicated products “are not colorably
different tha[n] the accused products.” Id. at *6. TCL
timely appealed the court’s infringement finding and
its rulings regarding royalties. We affirm all of the
court’s rulings and the verdict predicated thereon. We
write only to address—and refute— TCL’s contention
that whether a patent is essential to any standard
established by a standard setting organization is a
question of law to be resolved in the context of claim
construction.
DISCUSSION
We review a denial of JMOL under the law of the
regional circuit. Energy Transp. Grp., Inc. v. William
Demant Holding A/S, 697 F.3d 1342, 1350 (Fed. Cir.
2012). “In the Third Circuit, review of denial of JMOL
is plenary.” Finjan, Inc. v. Secure Computing Corp.,

64a
626 F.3d 1197, 1202 (Fed. Cir. 2010) (citations omitted). JMOL is “‘granted only if, viewing the evidence
in the light most favorable to the nonmovant and
giving it the advantage of every fair and reasonable
inference, there is insufficient evidence from which a
jury reasonably could find’ for the nonmovant.”
TransWeb, LLC v. 3M Innovative Props. Co., 812 F.3d
1295, 1301 (Fed. Cir. 2016) (quoting Lightning Lube,
Inc. v. Witco Corp., 4 F.3d 1153, 1166 (3d Cir. 1993)).
Infringement is a question of fact, “reviewed for
substantial evidence when tried to a jury.” ACCO
Brands, Inc. v. ABA Locks Mfrs. Co., 501 F.3d 1307,
1311 (Fed. Cir. 2007). A factual finding is supported by
substantial evidence if a reasonable jury could have
found in favor of the prevailing party in light of the
evidence presented at trial. See Tec Air, Inc. v. Denso
Mfg. Mich. Inc., 192 F.3d 1353, 1357–58 (Fed. Cir.
1999).
In cases involving standard essential patents, we
have endorsed standard compliance as a way of
proving infringement. See, e.g., Ericsson, Inc. v. DLink Sys., Inc., 773 F.3d 1201, 1209 (Fed. Cir. 2014)
(because a “standard requires that devices utilize specific technology, compliant devices necessarily infringe
certain claims . . . cover[ing] technology incorporated
into the standard”); Dynacore Holdings Corp. v. U.S.
Philips Corp., 363 F.3d 1263 (Fed. Cir. 2004) (affirming non-infringement judgment because patentee did
not show that a particular claim limitation was mandatory in the standard). This appeal presents a question not expressly answered by our case law: who
determines the standard-essentiality of the patent
claims at issue—the court, as part of claim construction, or the jury, as part of its infringement analysis?

65a
On appeal, as it did before the district court, TCL
argues that IP Bridge’s theory of infringement relied
on an improper reading of our decision in Fujitsu.
TCL states that, to establish literal infringement, a
patentee must demonstrate that every limitation set
forth in a claim is present in the accused product. In
TCL’s view, Fujitsu carved out a narrow exception to
this requirement by stating that “[i]f a district court
construes the claims and finds that the reach of the
claims includes any device that practices a standard,
then this can be sufficient for a finding of infringement.” TCL Br. 31–32 (quoting Fujitsu, 620 F.3d at
1327). TCL argues that, under Fujitsu, the court must
first make a threshold determination as part of claim
construction that all implementations of a standard
infringe the claims. It argues that IP Bridge never
asked the district court to conduct such an analysis
and the question should not have gone to the jury.
IP Bridge responds that standard-essentiality is a
classic fact issue, and is the province of the factfinder.
IP Bridge Br. 27. In IP Bridge’s view, Fujitsu does
not stand for the proposition that the determination of
standard-essentiality must occur in the context of
claim construction. IP Bridge asks us to read Fujitsu
in the context of its procedural posture—Fujitsu
involved an appeal from summary judgment and there
was no involvement of a jury for that reason. We agree
with IP Bridge that standard-essentiality is a question
for the factfinder.
In Fujitsu the appellant asked us to find no evidence
of direct infringement because the district court relied
on the standard, rather than the accused products, in
assessing infringement. We rejected the appellant’s
demand for a rule “precluding the use of industry
standards in assessing infringement.” Fujitsu, 620

66a
F.3d at 1326. The holding of Fujitsu, in its proper
context, is illuminating:
We hold that a district court may rely on an
industry standard in analyzing infringement.
If a district court construes the claims and
finds that the reach of the claims includes any
device that practices a standard, then this
can be sufficient for a finding of infringement.
We agree that claims should be compared to
the accused product to determine infringement. However, if an accused product operates in accordance with a standard, then
comparing the claims to that standard is
the same as comparing the claims to the
accused product. We accepted this approach
in Dynacore where the court held a claim not
infringed by comparing it to an industry
standard rather than an accused product. An
accused infringer is free to either prove that
the claims do not cover all implementations of
the standard or to prove that it does not
practice the standard.
Id. at 1327 (emphasis added). We recognized in Fujitsu
that the fact that a patent’s claims cover an industry
standard does not necessarily establish that all
standard-compliant devices implement the standard
in the same way. And we noted that an asserted patent
claim might not cover all implementations of an
industry standard. In such cases, we guided, infringement must be proven by comparing the claims to the
accused products, or by proving that the accused
devices “implement any relevant optional sections of
the standard.” Id. at 1328. Thus, Fujitsu teaches that
where, but only where, a patent covers mandatory

67a
aspects of a standard, is it enough to prove infringement by showing standard compliance.
TCL’s entire appeal rests on its misreading of a
single statement from Fujitsu. See id. at 1327 (“If a
district court construes the claims and finds that the
reach of the claims includes any device that practices
a standard, then this can be sufficient for a finding
of infringement.”). But we did not say in Fujitsu that
a district court must first determine, as a matter of law
and as part of claim construction, that the scope of the
claims includes any device that practices the standard
at issue. To the contrary, in reviewing the district
court’s summary judgment decision (where no facts
were genuinely in dispute), we stated that, if a district
court finds that the claims cover any device that
practices a standard, then comparing the claims to
that standard is the same as the traditional infringement analysis of comparing the claims to the accused
product. That statement assumed the absence of genuine disputes of fact on the two steps of that analysis,
which would be necessary to resolve the question at
the summary judgment stage. The passing reference
in Fujitsu to claim construction is simply a recognition
of the fact that the first step in any infringement
analysis is claim construction.
Our reading of Fujitsu is buttressed by that decision’s reference to Dynacore. There, too, we reviewed
a decision stemming from a summary judgment
motion. We affirmed the judgment of non-infringement
because the patentee did not show that a particular
claim limitation was mandatory in the standard.
Dynacore, 363 F.3d at 1278. We also noted the district
court’s finding that the patentee’s experts “contribute[d] little other than a conclusory opinion,” failing to
raise a dispute over material facts for trial. Id. at

68a
1277–78. Although we referenced the claim construction by which the patentee was bound, Dynacore considered the possibility of the dispute going to the jury
and rejected it based on undisputed facts. Thus, under
Dynacore, which Fujitsu referenced in its holding,
standard-essentiality of patent claims is a fact issue.
Like any other fact issue, it may be amenable to
resolution on summary judgment in appropriate cases.
But that does not mean it becomes a question of law.
1

Determining standard-essentiality of patent claims
during claim construction, moreover, hardly makes
sense from a practical point of view. Essentiality is,
after all, a fact question about whether the claim
elements read onto mandatory portions of a standard
that standard-compliant devices must incorporate.
This inquiry is more akin to an infringement analysis
(comparing claim elements to an accused product)
than to a claim construction analysis (focusing, to a
large degree, on intrinsic evidence and saying what
the claims mean). As we explained in Fujitsu, one
way an accused infringer can successfully defeat
allegations of infringement in the standard essential
patent context, is by rebutting a patentee’s assertion
that its patents are essential to the standard. 620 F.3d
at 1327. This statement would make no sense if claim
construction were sufficient to resolve the question.
Accordingly, we reject TCL’s reading of Fujitsu.
Where, as here, there are material disputes of fact
regarding whether asserted claims are in fact essential to all implementations of an industry standard,
1

Here, by contrast, IP Bridge’s expert testified at length about
how each claim limitation is present in mandatory portions of the
LTE standard and how TCL’s LTE standard-compliant devices
practice mandatory portions of the standard.

69a
the question of essentiality must be resolved by the
trier of fact in the context of an infringement trial.
Viewed through this lens, we find that substantial
evidence fully supports the jury’s infringement
verdict.2
CONCLUSION
We have carefully considered TCL’s remaining arguments—including its argument that the district court
abused its discretion in awarding on-going royalties in
this case. We see no reason to disturb the district
court’s conclusions. Accordingly, we affirm.
AFFIRMED.

2

TCL’s own documents and marketing materials make clear
that its products are standard-compliant—a conclusion TCL does
not refute on appeal. And the jury was free to credit IP Bridge’s
substantial expert evidence that IP Bridge’s patent claims are
essential to mandatory portions of the standard.

70a
APPENDIX G
NOTE: This order is nonprecedential.
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
[Filed: December 4, 2020]
————
2019-2215
————
GODO KAISHA IP BRIDGE 1,
Plaintiff-Appellee,
v.
TCL COMMUNICATION TECHNOLOGY
HOLDINGS LIMITED, TCT MOBILE LIMITED,
TCT MOBILE (US) INC., TCT MOBILE, INC.,
Defendants-Appellants.
————
Appeal from the United States District Court for the
District of Delaware in No. 1:15-cv-00634-JFB-SRF,
Senior Judge Joseph F. Bataillon.
————
ON PETITION FOR REHEARING EN BANC
Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO, CHEN,
HUGHES, and STOLL, Circuit Judges.
PER CURIAM.
ORDER
Appellants TCL Communication Technology Holdings Limited, TCT Mobile (US) Inc., TCT Mobile
Limited and TCT Mobile, Inc. filed a petition for

71a
rehearing en banc. A response to the petition was
invited by the court and filed by Appellee Godo Kaisha
IP Bridge 1. The petition was first referred as a petition for rehearing to the panel that heard the appeal,
and thereafter the petition for rehearing en banc was
referred to the circuit judges who are in regular active
service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied. The
petition for rehearing en banc is denied.
The mandate of the court will issue on December 11,
2020.
FOR THE COURT
December 4, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

72a
APPENDIX H
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
[Filed November 6, 2018]
————
C.A. No. 1:15-cv-634-JFB-SRF
————
GODO KAISHA IP BRIDGE 1, a Japanese Corporation,
Plaintiff,

v.

TCL COMMUNICATION TECHNOLOGY
HOLDINGS LIMITED, a Chinese corporation,
TCT MOBILE LIMITED, a Hong Kong corporation,
TCT MOBILE (US), Inc., a Delaware corporation, AND
TCT MOBILE, INC., a Delaware Corporation,
Defendants.
————
DEFENDANTS’ BENCH BRIEF
REGARDING JURY INSTRUCTIONS ON
DIRECT INFRINGEMENT
————
OF COUNSEL:
John E. Nilsson
Edward Han
Nicholas M. Nyemah
Arnold & Porter Kaye Scholer LLP
601 Massachusetts Avenue, N.W.
Washington, D.C. 20001
(202) 942-5000
john.nilsson@apks.com
ed.han@apks.com
nicholas.nyemah@arnoldporter.com

73a
Nicholas Lee
Arnold & Porter Kaye Scholer LLP
777 South Figueroa Street 44th Floor
Los Angeles, CA 90017-5844
(213) 243-4156
nicholas.lee@arnoldporter.com
Benjamin J. Schladweiler (#4601)
Greenberg Traurig LLP
The Nemours Building
1007 North Orange Street
Suite 1200
Wilmington DE 19801
schladweilerb@gtlaw.com
Counsel for Defendants TCL Communication Technology
Holdings Limited, TCT Mobile Limited, TCT Mobile
(US), Inc., and TCT Mobile, Inc.
Dated: November 6, 2018
The fragments of the transcript that IP Bridge
cites to suggest that TCL went back on a pledge to the
Court are misleading, to say the least. The parties
were debating the preliminary instruction on direct
infringement, which IP Bridge had objected to as omitting discussion of Fujitsu Ltd. v. Netgear, Inc., 620
F.3d 1321 (Fed. Cir. 2010). The Court made a decision
to maintain its preliminary instruction on direct
infringement, which omitted discussion of Fujitsu,
explaining, “I think that the Federal Circuit Bar
Association and the AIPLA is probably more articulate
than I on jury instructions, but I’m willing to revisit
this issue foreclosing instructions, so I’m going to
overrule your objection.” 328:9-13. In response, Mr.
Batchelder protested that “what I don’t want to see
in the opening from the defendant is them saying,
Batchelder just presented this theory of standards

74a
based infringement, but the Court just told you that
he was wrong because the law is you must compare the
accused products with the claims directly, so if you are
going to reserve that issue, we can’t have that argument.” 331:18-24. It was in the context of predicting
the Court’s final instructions on this issue that Mr.
Nilsson “I certainly am not going to refer to the Court
jury instruction, but I am going to say to prove literal
infringement, you need to compare the claim language
to what you’re accusing, because that’s what the law
is.” 330:1-5. Then the Court stated clearly, “[s]o you’re both
going to get to argue your heads on it and eventually
I’m going to do the law. If I do the law differently than
what you cited, I’m sure it will come back to haunt you.
But if I do exactly what your side says, you can say,
see, I told you so. So right now, that’s where we are.”
(331:4-9 (emphasis added).) Out of concern that this is
about to occur, IP Bridge distorts the record.
The Court’s instruction on Direct Infringement,
Jury Instruction No. 19, appropriately requires the
jury to “compare the Accused Products with each and
every one of the requirements of a claim” to determine
if IP Bridge has met its burden to prove direct infringement. IP Bridge bears the burden of showing that each
limitation of the asserted claims’ limitations is found
literally in the accused products. The Federal Circuit’s
decision in Fujitsu did not overrule this fundamental
tenet of patent law.
In Fujitsu, the Court of Appeals reaffirmed that
“claims should be compared to the accused product to
determine infringement.” 620 F.3d at 1327. The
Federal Circuit identified a limited circumstance in
which that comparison could be made by reference to
an industry standard: “If a district court construes the
claims and finds that the reach of the claims includes

75a
any device that practices a standard, then this can be
sufficient for a finding of infringement.” Id. (emphasis
added). And this, of course, makes sense. If, at the time
of claim construction, IP Bridge had presented claim
constructions incorporating the supposedly relevant
portions of the 3GPP industry standards, the Court
would have had the opportunity to “construe[] the
claims and find[] that the reach of the claims includes
any device that practices a standard.” Id. Or, as the
evidence at trial suggests, it may well have found
otherwise. But IP Bridge did not do this. It never
mentioned the 3GPP industry standards on which its
theory of infringement at trial has been premised for
the asserted patents. (D.I. 109.) The consequence has
been that it has presented a theory of infringement at
trial that virtually ignores the settled principle that
“[e]ach element contained in a patent claim is deemed
material to determining the scope of the patented
invention[,]” and every element must be found in the
accused device. Warner-Jenkinson v. Hilton Davis Chem.
ment order recognized that Fujitsu’s holding applies
only when a district court construes the claims to find
that the reach of the claims includes any device that
practices a standard.1
In WiA V Networks, LLC v. 3Com Corp., 2010 WL
3895047, at *2 (N.D. Cal. Oct. 1, 2010), the plaintiff’s
infringement theory was premised in part on the
defendant’s products being compliant with a wireless
industry standard. Id. at 2. The court rejected plaintiff’s argument on the basis that the products’
compliance with the protocol did not automatically
establish that plaintiff’s patents cover all implementations of the protocol. Id. The court, citing
1

DI. 446, pg 11.

76a
Fujitsu, explained that “only in situations where a
properly construed patent covers all required elements
of an industry standard will it be enough to prove
infringement by showing compliance with the standard,”
and it highlighted plaintiff’s failure to show that
practicing the asserted patents is “essential to complying with the protocol in all instances.” Id.; see also
Paone v. Microsoft Corp, 881 F. Supp. 2d 386, 400-01
(granting summary judgment of no infringement
where plaintiff failed to show that all real world
implementations of standard would infringe).
The AIPLA Model Patent Jury Instructions2 (Ex. A),
and the Federal Circuit Bar Association Model Patent
Jury Instructions (Ex. B), on direct infringement—
both of which have been updated since Fujitsu—continue
to require juries to compare the accused product to
each asserted patent claim3. Final jury instructions in
standard essential patent cases post-Fujitsu have
similarly instructed jurors to undertake a comparison
of the accused product with each and every one of the
limitations of each asserted claim.4 For these reasons,
the Court’s jury instruction on direct infringement
properly explains that that it is IP Bridge’s burden to
prove infringement by showing that the accused

2

1P Bridge cited the 2017 AIPLA Model Patent Jury
Instructions in support of its proposed direct infringement
instruction. (D.I. 435, pg. 26.)
3
The District of Delaware’s Model Instructions similarly
require jurors to compare the accused product to each asserted
patent claim. (Ex. C).
4
Interdigital Communications Inc., v. ZTE Corporation (Ex.
D), Ericsson Inc., v. D-Link Corp., (Ex. E), Golden Bridge Tech v.
Apple Inc., (Ex. F), Cellular Communications Equipment L.L. C.,
v. Apple Inc., (Ex. G), Optis Wireless Tech., LLC v. Huawei Techs
(Ex. H).

77a
products include each and every requirement of the
asserted claim as construed by this Court.
Respectfully submitted,
/s/Benjamin J. Schladweiler
OF COUNSEL:
Benjamin J. Schladweiler (#4601)
Greenberg Traurig LLP
The Nemours Building
1007 North Orange Street
Suite 1200
Wilmington DE 19801
schladweilerb@gtlaw.com
John E. Nilsson
Edward Han
Nicholas M. Nyemah
Arnold & Porter Kaye Scholer LLP
601 Massachusetts Avenue, N.W.
Washington, D.C. 20001
(202) 942-5000
john.nilsson@apks.com
ed.han@apks.com
nicholas.nyemah@arnoldporter.com
Nicholas Lee
Arnold & Porter Kaye Scholer LLP
777 South Figueroa Street 44th Floor
Los Angeles, CA 90017-5844
(213) 243-4156
nicholas.lee@arnoldporter.com
Counsel for Defendants TCL Communication Technology Holdings Limited,
TCT Mobile Limited, TCT Mobile
(US), Inc., and TCT Mobile, Inc.
Dated: November 6, 2018

78a
CERTIFICATE OF SERVICE
I, Benjamin J. Schladweiler, hereby certify that on
November 6, 2018, a true and correct copy of the
foregoing Defendants’ Bench Memorandum was served
via electronic mail upon the following counsel of
record:
Elena C. Norman
Anne Shea Gaza
Samantha G. Wilson
YOUNG CONAWAY STARGATT & TAYLOR, LLF
Rodney Square
1000 North King Street
Wilmington, DE 19801
enorman@ycst.com
agaza@ycst.com
swilson@ycst.com
James R. Batchelder
Andrew T. Radsch
Joseph B. Palmieri
Shong Yin
ROPES & GRAY LLP
1900 University Avenue, 6th Floor
East Palo Alto, CA 94303
james.batchelder@ropesgray.com
andrew.radsch@ropesgray.com
joseph.palmieri@ropesgray.com
shong.yin@ropesgray.com
Counsel for Plaintiff Godo Kaisha IP Bridge 1

79a
Steven Pepe
Kevin J. Post
Alexander E. Middleton
Matthew R. Shapiro
ROPES & GRAY LLP
1211 Avenue of the Americas
New York, NY 10036-8704
steven.pepe@ropesgray.com
kevin.post@ropesgray.com
alexander.middleton@ropesgray.com
matthew.shapiro@ropesgray.com
Samuel L. Brenner
ROPES & GRAY LLP
800 Boylston Street Boston, MA 02199
samuel.brenner@ropesgray.com
Michael Gershon
ROPES & GRAY LLP
2099 Pennsylvania Avenue, N.W.
Washington, D.C. 20006-6807
michael.gershoni@ropesgray.com
Counsel for Plaintiff Godo Kaisha IP Bridge 1
/s/ Benjamin J. Schladweiler
Benjamin J. Schladweiler (#4601)

